<html>
<title> - THE UNITED STATES, THE RUSSIAN FEDERATION AND THE CHALLENGES AHEAD</title>
<body><pre>[Senate Hearing 115-748]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-748

         THE UNITED STATES, THE RUSSIAN FEDERATION AND THE 
                            CHALLENGES AHEAD

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION
                               __________

                           FEBRUARY 9, 2017
                               __________

       Printed for the use of the Committee on Foreign Relations


                 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                   Available via the World Wide Web:
                         http://www.govinfo.gov

                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
39-736 PDF                WASHINGTON : 2020 




                 COMMITTEE ON FOREIGN RELATIONS        

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               JEANNE SHAHEEN, New Hampshire
JEFF FLAKE, Arizona                  CHRISTOPHER A. COONS, Delaware
CORY GARDNER, Colorado               TOM UDALL, New Mexico
TODD YOUNG, Indiana                  CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    JEFF MERKLEY, Oregon
RAND PAUL, Kentucky                  CORY A. BOOKER, New Jersey


                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



                              (ii)        

  

                            C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator From Tennessee....................     1
Cardin, Hon. Benjamin L., U.S. Senator From Maryland.............     3
Breedlove, General Philip M., USAF (ret.) Distinguished 
  Professor, Sam Nunn School, Georgia Institute of Technology; 
  Board Director, Atlantic Council; Former Nato Supreme Allied 
  Commander Europe; Former Commander, U.S. European Command; 
  Washington, DC.................................................     6
    Prepared statement...........................................     8
Smith, Julianne, Senior Fellow and Director, Strategy and 
  Statecraft Program, Center for New American Strategy, 
  Washington, DC.................................................    10
    Prepared statement...........................................    12

              Additional Material Submitted for the Record

Responses of Julianne Smith to Questions Submitted by Senator 
  Todd Young.....................................................    53
The Committee Received no Response From General Philip M. 
  Breedlove for the Following Questions..........................    55
Letter to The President From Senator Cory Gardner................    56


                             (iii)        

 
   THE UNITED STATES, THE RUSSIAN FEDERATION AND THE CHALLENGES AHEAD

                              ----------                              


                       THURSDAY, FEBRUARY 9, 2017

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:59 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Rubio, Johnson, 
Gardner, Young, Barrasso, Isakson, Portman, Paul, Cardin, 
Menendez, Shaheen, Coons, Udall, Murphy, Kaine, Markey, 
Merkley, and Booker.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Foreign Relations Committee will come to 
order.
    Since November of last year, this committee has tried to 
get witnesses from the prior administration to testify about a 
wide range of issues currently challenging the United States-
Russian relationship. While the Obama administration did make 
officials available for classified briefings, they would not 
allow anyone to speak publicly about the strategic issues 
driving this relationship.
    By the way, that is not a criticism. It is an observation. 
And I know they wanted to get everybody on the same page 
relative to things that led up to the election.
    But the point is, it has taken us a while to actually have 
a Russia hearing, and we are glad to be able to do that today.
    At the same time, the Trump administration continues the 
process of nominating its own people and establishing its own 
priorities, so not a lot of people in the Trump administration 
to testify today either.
    This committee turns to the expertise of previous 
government servants with deep knowledge of Russia. And I am 
going to welcome you properly in a moment, but I just wanted to 
say thank you so much for being here today.
    Specifically, we have asked them here to discuss the 
overall state of our bilateral relationship and the elements of 
a successful strategy to defend American interests.
    Russia possesses not only the second most powerful military 
in the world--behind the United States in everything except 
nuclear weapons--but also a seat at the United Nations Security 
Council, where their veto can complicate much of what we try to 
do in the world.
    Just to amplify and say that the U.N. Security Council was 
set up to create stability around the world, and those 
permanent members were put there because they were seen as a 
stabilizing force. Now Russia is a member of this, and 
obviously will continue to be, and has very much become a 
destabilizing force and has kept us from doing things around 
the world in unison that should be done.
    So today, we must discuss the broad spectrum of issues that 
our country has with the Russian Federation and its behavior in 
recent years.
    As we have heard multiple times in this room, Russia 
violated the Budapest Memorandum when it invaded Ukraine, where 
it continues to occupy stolen land and enable combat operations 
that kill innocent civilians. Just another report out recently 
regarding what is happening in eastern Ukraine, the depravity 
that people are dealing with there, again, solely by the 
Russians supporting the rebels there.
    I appreciated the comments last week of our new Ambassador 
to the United Nations, Nikki Haley, who strongly condemned 
Russia's role in the recent escalation of violence in eastern 
Ukraine and insisted U.S. sanctions over Crimea would remain in 
place. And I would note communications staff in the White House 
verified that that was the administration's position.
    As the New York Times reported in October of last year, 
Russia has also developed ground-launched cruise missiles, 
GLCMs, as we call them, that violate the Intermediate Nuclear 
Forces Treaty, giving them a serious military advantage at the 
expense of international law.
    And at some point, you wonder what the purpose is of a 
treaty that we know--that we know--Russia has violated and, in 
essence, in some ways is abrogating.
    And as we have seen on our own televisions and smartphones, 
Russia has joined the Syrian civil war on the side of the Assad 
regime, participating in the destruction of hospitals and 
schools, and targeting civilians. The resulting instability 
contributed to the migration crisis and terror threat that has 
gripped Europe.
    I know General Breedlove has been there seven times since 
his retirement in May. Not much of a retirement, I might add. 
But I know you will be able to shed light on that.
    These are only a few examples of ways in which Russian 
actions directly conflict with American interests. The entire 
list is longer, including the deployment of Russian forces into 
Georgia and Moldova; unprecedented efforts to interfere in our 
elections; and the increasingly hostile approach that the 
Russian Government has taken to silence opposition politicians, 
a free and independent press, and civil society in general.
    The sudden hospitalization of pro-democracy advocate 
Vladimir Kara-Murza, who testified here not long ago, who 
continues to fight for his life, stands as a stark reminder of 
the risks borne by Russians when they speak out against an 
increasingly autocratic regime.
    Similarly, the Russian courts' treatment of Alexei Navalny 
begs questions about the democratic process under Putin.
    How we deal with Russia is going to be one of the major 
projects for Secretary of State Rex Tillerson and is something 
for which he is ideally suited, given his deep relationships 
and understanding of the geostrategic issues at play. Secretary 
Tillerson knows the dangers posed by Russia and the importance 
of restoring a credible U.S. deterrent so Moscow can no longer 
exploit what it perceives as American weakness.
    With that, I look forward to hearing from our witnesses 
about how to address these problems in a way that moves our 
approach to Russia in the right direction.
    Again, thank you. And I will turn to our distinguished 
ranking member and my friend, Ben Cardin.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Thank you, Mr. Chairman.
    I welcome both of our witnesses today. We are, indeed, very 
fortunate to have you participate in this discussion. We have 
two people who are very knowledgeable in U.S.-Russian 
relations.
    And, Mr. Chairman, I want start by thanking you. There is 
no person in the United States Senate that is more protective 
of the role of the Senate Foreign Relations Committee than our 
chairman, Chairman Corker. And I very much appreciate that. It 
is one of the reasons why I think people want to serve on this 
committee, because they recognize that our chairman will 
preserve the importance of this committee in the Senate and in 
this country.
    And the chairman is absolutely correct. After the attack on 
our country by Russia, and our election system, there was a 
strong desire to hold hearings. Senator Shaheen was one of the 
leaders to suggest that there needs to be greater congressional 
involvement and awareness of what Russia was trying to do to 
the United States.
    We were caught in transition. We had an administration that 
was leaving and an administration that was starting up, and it 
was not possible to hold meaningful meetings of our committee 
in an effort to carry out our responsibility.
    So I very much appreciate this hearing as we start our 
discussion on how the United States needs to deal with Russia. 
And from the point of view of the Senate Foreign Relations 
Committee, what can we do in regards to use of our diplomacy?
    We are the committee that authorizes force. We have a lot 
at stake as to how we can protect our country against the 
actions that Russia has taken, and how we can also try to 
change the equation. How can we change the equation from 
Russia's point of view, as they show aggression?
    It is not just the attack on our country--we know that--on 
the free election. But we also worry what they may do in the 
future, not only in the United States but in Western Europe.
    It is also what they continue to do in Ukraine. The 
chairman pointed out they violated the Budapest Memorandum, the 
Minsk agreements. And they have invaded Ukraine. They occupy 
Crimea today. And they are still interfering in the eastern 
part of Ukraine.
    And then we see what they are doing in Syria. We just got a 
report from Amnesty International about 13,000 people who were 
executed in a prison north of Damascus. These are war crimes--
war crimes. And they are assisted and carried out because of 
the support of Russia to the Assad regime in Syria.
    All those issues beg for us to be engaged as to how we can 
change Russia's calculations, because we know where there is a 
void, they are going to fill it in a way that is contrary to 
the interests of our national security. So we need to remain 
strong.
    Mr. Chairman, I very much agree that this committee needs 
to be engaged. I have, as you know, filed for an independent 
commission, like the 9/11 commission. I think that should be 
done also, because that is an independent, full-time commission 
that can look at what happened to our country and help us 
prepare. But I strongly support the efforts that we are doing 
here.
    I want to say just one word that concerned me, with 
President Trump trying to drive a moral equivalency between the 
murderous conduct by Mr. Putin and activities in our own 
country. There is no equivalency whatsoever, and I think that 
did a disservice to the service men and women who have really 
defended our country and our democratic values, and I needed to 
say something.
    I was pleased to see Ambassador Haley's comments, supported 
by the White House, that the sanctions in Russia will remain. 
They need to remain, in my view, until Russia complies with the 
Helsinki commitments and withdraws from Crimea, and 
interference with Ukraine, and they live up to all the terms in 
the Minsk agreements. So I was pleased to see that.
    Yesterday, Senator Graham and I, along with other members, 
filed the Russian Sanction Review Act. It is patterned after 
the bill, Mr. Chairman, that you and I and Senator Menendez and 
others, Senator Kaine and others, worked on to have a review of 
the Iran nuclear agreement. It is patterned very similar to 
that, so that before the President would consider changing the 
sanction regime in Russia, he would give Congress an 
opportunity--and the American people--to understand the policy, 
before that could go into effect. It is bipartisan, and that is 
the way I think we should operate.
    I have also filed with Senator McCain--and joined by 
members of this committee, Senators Rubio, Portman, Gardner, 
Menendez, Shaheen, and Murphy--a bill that would strengthen our 
ability to use sanctions against Russia because of these 
conducts.
    I think all of that is important.
    Washington needs to send a signal of resolve. Otherwise, 
Moscow will continue to interfere in our democratic process and 
those of our allies. It will continue to violate the 
sovereignty of its neighbors. It will push until it is stopped.
    Mr. Chairman, I want to close with a quote from Kara-Murza, 
the person who we have talked about in recent days. He is a 
courageous democratic activist in Russia who was poisoned in 
2015. He asserts that the government attacked him for his 
activism.
    Last week, we received word that he once again was in a 
coma as a result, we believe, of another effort to poison him. 
I just want to say one word of encouragement. We have heard 
today that he is coming out of that coma. That is good news. 
But he is still very, very seriously ill.
    This is what he said when he testified before our 
committee, sat where our two witnesses are sitting today, but 
he sat there on June the 7th of last year, and this is his 
quote: ``Our friends in the West often ask how they can be 
helpful to the cause of human rights and democracy in Russia. 
And the answer is very simple. Please stay true to your values. 
We are not asking for your support. It is our task to fight for 
democracy and the rule of law in our country. The only thing we 
ask from Western leaders is that they stop supporting Mr. Putin 
by treating him as a respectable and worthy partner, and by 
allowing Mr. Putin's cronies to use Western countries as havens 
for their looted wealth.''
    I pray that Mr. Kara-Murza will recover. I pray that he 
will continue to be allowed to participate in the Russian 
society. I pray that the Russian people will have a government 
that is reflective of the greatness of them as individuals. And 
I think we can play a role in this committee.
    I look forward to our hearing.
    The Chairman. Well, thank you for those comments. And I 
just want to reiterate something you said. I see no moral 
equivalence--none--between ourselves and the actions that 
Russia has taken.
    And I agree with you. Those comments, to me, do not reflect 
certainly most members of the United States Senate. I would say 
all, but I think at least most. And I could not agree more.
    Secondly, I thank you for efforts legislatively. I have 
talked a little bit with General Breedlove prior to coming in. 
And having spent some time with Tillerson, understanding the 
route he is planning to take to ratchet back what Russia is 
doing, I want to spend a little time making sure that what we 
do to strengthen his hand is appropriate.
    And I think you are going to see a very different type of 
activity towards Russia personally than we have seen. This is 
not to be pejorative, but, let us say one more time, I mean, 
Russia and Putin took advantage of what they saw to be 
weakness. And I think what we all want to do is show strength, 
but we want to do so in conjunction with activities that we 
think can have a degree of flexibility, but move ahead together 
in a much stronger way.
    So again, thank you for that.
    With that, our first witness is Retired General Philip M. 
Breedlove, distinguished professor at the Sam Nunn School at 
the Georgia Institute of Technology and board director at the 
Atlantic Council. General Breedlove previously served as former 
NATO Supreme Allied Commander in Europe and former commander of 
U.S. European Command. We have all spent a lot of time with him 
in Europe and here, and we thank him for his incredible service 
to our Nation, which is continuing as we speak.
    Our second witness today is Ms. Julianne Smith, who has 
been before us in the past, a senior fellow and director at the 
Strategy and Statecraft Program at the Center for New American 
Strategy.
    We thank you again for being with us. I think both of you 
know you can summarize your comments, which would be 
appreciated, in about 5 minutes. Without objection, your 
written testimony will be entered into the record.
    Again, thank you for being here on this most important day 
with this hearing. Thank you.
    And if you could just begin, General Breedlove, we would 
appreciate it.

     STATEMENT OF GENERAL PHILIP M. BREEDLOVE, USAF (RET.) 
DISTINGUISHED PROFESSOR, SAM NUNN SCHOOL, GEORGIA INSTITUTE OF 
   TECHNOLOGY; BOARD DIRECTOR, ATLANTIC COUNCIL; FORMER NATO 
    SUPREME ALLIED COMMANDER EUROPE; FORMER COMMANDER, U.S. 
                EUROPEAN COMMAND; WASHINGTON, DC

    General Breedlove. Chairman Corker, Ranking Member Cardin, 
thank you for this invitation to testify before the United 
States Senate Committee on Foreign Relations. It is really an 
honor to be here.
    We are here to discuss an urgent topic, and you have both 
led in well to it, and that is U.S. policy towards Russia.
    Not surprisingly, at the start of a new administration, 
there is much talk about a new effort to reach out to Moscow 
and to start a dialogue. This was true at the start of George 
W. Bush's administration and President Obama's.
    Given the current difficulties in U.S.-Russia relations, 
this interest makes a good deal of sense to me. Russia is, as 
you have mentioned, a great power. They have a proud history. 
They have the largest country in terms of territory, and they 
are a player in influence in Europe, East Asia, and the Middle 
East.
    Russia possesses the world's second most powerful military, 
as you pointed out, Mr. Chairman, a nuclear arsenal comparable 
to ours, and conventional forces that are easily the most 
powerful in Europe.
    While its economy is stagnant and hit hard by the low 
prices of oil and natural gas, it is still the 12th largest, in 
dollar terms.
    We cannot simply dismiss Russia. I think we would do that 
at our peril.
    It makes great sense for our government to have meaningful 
discussions and meetings with Russia. We have much to discuss 
with the Kremlin. But first, we would like to make sure that 
our relationship does not deteriorate further.
    For me, the most urgent matter concerns Moscow's current 
practice in flying warplanes dangerously close and without 
their transponders on, and to the incursions between our 
aircraft and their ships. Such incidents risk fatal accidents 
and even a clash between the U.S. and Russia. We need to 
reestablish substantive communication between our two 
militaries in order to avoid such incidents and, when they 
occur, to move towards de-confliction.
    In our initial communication and/or cooperation, if it is 
successful, then more senior dialogue might be warranted. Maybe 
a summit would permit us to see if there is a basis for 
cooperation on a number of global issues of possible interest 
to both of us.
    That should start with a subject that has been at the heart 
of relations between Washington and Moscow for over half a 
century, and that is nuclear disarmament. This area has been 
dormant since the first Obama administration.
    Equally important, especially for President Trump, is 
potential joint action against the Daesh or Islamic State of 
Iraq and the Levant, ISIL.
    The problem here is that, thus far, Moscow's extensive 
military operation in Syria has devoted little attention to the 
extremists. It has, instead, been directed against the weak 
moderates who we support and, lately, as it works with Ankara, 
against the Kurds. And its indiscriminate bombing against 
civilian populations has fueled refugee flows, exacerbating the 
refugee crisis in Europe.
    Moscow's principal objective in Syria is to shore up the 
weak, yet savage, Assad regime. If we backed off active 
opposition to Assad, a serious concession to Mr. Putin, is 
Moscow really willing to partner in Syria and beyond?
    Another area to explore is Iran. Moscow has been an active 
partner of Iran in Syria. As we saw recently, Iran even 
provided Russian warplanes a base for a brief period of time. 
Yet, at the same time, it worked with us and others in 
persuading Tehran to sign the agreement on its nuclear program.
    The Trump administration has indicated that it wants to 
take a second look and improve the terms of that agreement. Is 
Moscow willing to partner? Or does it prefer good relations 
with Tehran at the expense of stability in the Persian Gulf?
    This is by no means a complete list. Space exploration and 
counternarcotics are among the other areas we could possibly 
cooperate. But all these issues point to the important business 
we can do when U.S. and Russian interests overlap.
    We must not, however, be naive. There are a number of 
critical areas where Moscow is challenging U.S. interests, 
including our vital interests. As the Supreme Allied Commander 
in Europe, I had a ringside seat for 3 years of watching Moscow 
do just that.
    President Putin has made clear that he wants to upend the 
post-Cold War order established in Europe. He and senior 
Russian officials have justified aggression in Ukraine by 
claiming a right to protect ethnic Russians and Russian 
speakers there, and they have said that this principle applies 
elsewhere.
    Their goal is to weaken NATO, the European Union, and the 
transatlantic relationship.
    The peace that we established in Europe in 1945, and that 
we reinforced at the end of the Cold War in 1989, has been the 
basis of the unprecedented security and prosperity that we have 
enjoyed for the past 25 years. It put an end to the unbridled 
great power rivalries that gave us World Wars I and II, the 
most destructive wars in human history.
    We have a vital interest in maintaining a strong NATO and a 
vibrant Europe.
    Over the past 9 years, the Kremlin has committed multiple 
acts of aggression: in Georgia in 2008; in Crimea in early 
2014; and, since then, an ongoing, not-so-covert war in 
Ukraine's east. It has agreed to two ceasefires, Minsk I and 
II, and violated each repeatedly.
    And Moscow has intimated by actions and statements that, if 
it succeeds in Ukraine, there will be future targets. These 
targets may include our NATO allies Estonia and Latvia where 
ethnic Russians comprise 25 percent of the population.
    We have a vital interest in stopping Moscow's revanchist 
policies before they move to other countries and especially our 
NATO allies in the Baltics. While we conduct a dialogue with 
Moscow, we need to strengthen NATO's presence in the Baltic 
States and other Eastern members of the alliance.
    The Trump administration should endorse the decisions taken 
at the Warsaw NATO summit last summer to do just that. It 
should reaffirm our Article 5 commitment to defend each NATO 
member under threat, and it should take the lead in enhancing 
NATO capabilities to deal with hybrid war.
    To underscore our commitment to the alliance, it would make 
sense for the President to meet first with his NATO colleagues 
before seeing President Putin.
    The administration, which understands the value of 
negotiating from strength, should adopt a position of forward 
defense in dealing with the Kremlin challenge to NATO. It 
should fully support Ukraine against Kremlin aggression.
    The Obama administration was reluctant to provide Ukraine 
with the defensive weapons necessary to better defend itself. 
The new term should to relook at that. It is also essential to 
provide Moscow no free passes in the war on Ukraine.
    Our and Europe's economic sanctions, which cost the Russian 
economy in 2015, were imposed as an incentive for Moscow to 
meet its Minsk commitments and withdraw from Ukraine's east, 
and as a deterrence against additional aggression. It would be 
a sign of weakness to ease those sanctions for anything less 
than Moscow's full compliance with Minsk.
    The more trouble the Kremlin has conducting its war in 
Ukraine, the less likely it is to cause trouble for us with our 
eastern NATO partners.
    We must also ramp up substantially our cyber defense to 
withstand the nasty operations that the Kremlin has been 
conducting against us and others. We also need to consider how 
we can respond to future cyberattacks in ways maybe not public 
that discourage them from continuing.
    So in closing, sir, a dialogue with Moscow is possible, as 
is cooperation on certain important issues. But we should not 
be fooled by that prospect to surrender either our principles 
or our interests. We should enter that conversation with good 
faith and respect, but also from a position of strength. That 
is the way to achieve agreements that serve our interests and 
that last.
    Thank you, sir.
    [The prepared statement of General Breedlove follows:]

         The Prepared Statement of General Philip M. Breedlove

    Chairman Corker, Ranking Member Cardin, thank you for this 
invitation to testify before the United States Senate Committee on 
Foreign Relations (SFRC). It is an honor to be here. We are here to 
discuss an urgent topic: U.S. policy toward Russia.
    Not surprisingly, at the start of a new administration there is 
much talk about a new effort to reach out to Moscow and to start a 
dialogue. This was true at the start of George W. Bush's administration 
and Barack Obama's.
    Given the current difficulties in U.S.-Russian relations, this 
interest makes a good deal of sense. Russia is a great power with a 
proud history, the world's largest country in terms of territory, and a 
player of influence in Europe, East Asia and the Middle East. Russia 
possesses the world's second most powerful military: a nuclear arsenal 
comparable to ours and conventional forces that are easily the most 
powerful in Europe. While its economy is stagnant and hit hard by the 
low prices of oil and natural gas, it is still the 12th largest in 
dollar terms. We cannot simply dismiss Russia as a declining and 
regional power. We would do that at our peril.
    It makes great sense for our government to have meaningful 
discussions and meetings with Russia this year. We have much to discuss 
with the Kremlin. First we would like to make sure that our 
relationship does not deteriorate further. The most urgent matter 
concerns Moscow's current practice of flying warplanes dangerously 
close, and at times without their transponders on, to American and 
other NATO planes and ships. Such incidents risk fatal accidents and 
even a clash between the U.S. and Russia. We need to re-establish 
substantive communication between our two militaries in order to avoid 
such incidents, and when they occur, to move toward de-confliction.
    If our initial communication and/or cooperation is successful then 
more senior dialog may be warranted. A summit would permit us to see if 
there is a basis for cooperation on a number of global issues of 
possible interest to both of us. That should start with a subject that 
has been at the heart of relations between Washington and Moscow for 
over half a century: nuclear disarmament. This area has been dormant 
since the first Obama administration. Equally important, especially for 
President Trump, is potential joint action against the Islamic State of 
Iraq and the Levant (ISIL) and other Salafi extremists.
    The problem here is that thus far Moscow's extensive military 
operation in Syria has devoted little attention to these extremists. It 
has instead been directed against the weak moderates whom we support 
and lately, as it works with Ankara, against the Kurds. And its 
indiscriminate bombing against civilian populations has fueled refugee 
flows, exacerbating the refugee crisis in Europe. Moscow's principal 
objective in Syria is to shore up the weak, yet savage, Assad regime. 
If we back off active opposition to Assad--a serious concession to Mr. 
Putin--is Moscow willing to be a real partner in Syria and beyond 
against Islamic extremists?
    Another area to explore is Iran. Moscow has been an active partner 
of Iran in Syria. As we saw recently, Iran even provided Russian 
warplanes a base for a brief period of time; yet at the same time it 
worked with us and others in persuading Tehran to sign the agreement on 
its nuclear program. The Trump administration has indicated that it 
wants to take a second look and improve the terms of that agreement. Is 
Moscow willing to partner on this? Or does it prefer good relations 
with Tehran at the expense of stability in the Persian Gulf?
    This is by no means a complete list--space exploration and counter-
narcotics are among the other areas where we can cooperate. But all 
these issues point to the important business we can do when U.S. and 
Russian interests overlap.
    We must not, however, be naive. There are a number of critical 
areas where Moscow is challenging U.S. interests, including vital ones. 
As the Supreme Allied Commander in Europe, I had a ringside seat for 
three years watching Moscow do just that.
    President Putin has made clear that he wants to upend the post-Cold 
War order established in Europe. He and senior Russian officials have 
justified aggression in Ukraine by claiming a right to protect ethnic 
Russians and Russian speakers there; and they have said that this 
principle applies elsewhere. Their goal is to weaken NATO, the European 
Union, and the Transatlantic relationship.
    The peace that we established in Europe in 1945, and that we 
reinforced at the end of the Cold War in 1989, has been the basis of 
the unprecedented security and prosperity that we have enjoyed for the 
past twenty-five years. It put an end to the unbridled great power 
rivalries that gave us World Wars I and II, the most destructive wars 
in human history. We have a vital interest in maintaining a strong NATO 
and vibrant Europe.
    Over the past nine years, the Kremlin has committed multiple acts 
of aggression: in Georgia in 2008; in Crimea in early 2014; and since 
then an ongoing not-so-covert war in Ukraine's East. It has agreed to 
two ceasefires--Minsk I and II--and violated each repeatedly.
    And Moscow has intimated, by actions and statements that if it 
succeeds in Ukraine, there will be future targets. Those targets may 
include our NATO allies, Estonia and Latvia, where ethnic Russians 
comprise 25 percent of the population.
    We have a vital interest in stopping Moscow's revanchist policies 
before they move to other countries, and especially our NATO allies in 
the Baltics. While we conduct a dialogue with Moscow, we need to 
strengthen NATO's presence in the Baltic states and other eastern 
members of the Alliance. The Trump administration should endorse the 
decisions taken at the Warsaw NATO summit last summer to do just that. 
It should reaffirm our Article 5 commitment to defend each NATO member 
under threat; and it should take the lead in enhancing NATO capacities 
to deal with hybrid war--the appearance of disguised Russian agents or 
little green men--in Allied countries.
    To underscore our commitment to the Alliance, it would make sense 
for the President to meet first with his NATO colleagues before seeing 
President Putin.
    And the Trump administration, which understands the value of 
negotiating from strength, should adopt a position of forward defense 
in dealing with the Kremlin challenge to NATO. It should fully support 
Ukraine against Kremlin aggression. The Obama administration was 
reluctant to provide Ukraine with the defensive weapons necessary to 
better defend itself. The new team can do better than that.
    It is also essential to provide Moscow no free passes in its war on 
Ukraine. Our and Europe's economic sanctions--which cost the Russian 
economy 1-1.5 of GDP in 2015--were imposed as an incentive for Moscow 
to meet its Minsk commitments and withdraw from Ukraine's East, and as 
a deterrence against additional aggression. It would be a sign of 
weakness to ease those sanctions for anything less than Moscow's full 
compliance with Minsk. The more trouble the Kremlin has conducting its 
war in Ukraine, the less likely it is to cause trouble for us with our 
eastern NATO partners.
    We must also ramp up substantially our cyber defenses to withstand 
the nasty operations that the Kremlin has been conducting against us 
and others. We also need to consider how we can respond to future 
cyber-attacks in ways--perhaps not public--that discourage them from 
continuing such practices. Doing that might persuade them to enter a 
serious dialogue on avoiding cyber confrontations.
    A dialogue with Moscow is possible, as is cooperation on certain 
important issues. But we should not be fooled by that prospect to 
surrender either our principles or our interests. We should enter that 
conversation with good faith and respect, but also from a position of 
strength. That is the way to achieve agreements that serve our 
interests, and that last.

    The Chairman. Thank you.
    Ms. Smith?

   STATEMENT OF JULIANNE SMITH, SENIOR FELLOW AND DIRECTOR, 
   STRATEGY AND STATECRAFT PROGRAM, CENTER FOR NEW AMERICAN 
                    STRATEGY, WASHINGTON, DC

    Ms. Smith. Chairman Corker, Ranking Member Cardin, and 
members of the committee, thank you for the opportunity to 
testify this morning on Russia.
    Let me just start by saying that the U.S.-Russia 
relationship is fraught with more tension today than at any 
point since the end of the Cold War. Russia is engaged in a 
sophisticated and long-term strategy to undermine the rules-
based order that we spent 70-some years creating and reforming 
with our European allies.
    As the general noted, Russia is doing everything it can to 
undermine our democratic institutions. It is trying to divide 
Europe from within. It is trying to divide Europe from the 
United States. And it is trying to create spheres of influence.
    Because of these efforts, because of what Russia is trying 
to do to undermine our interests, I think the role that 
Congress plays is more important than ever. And so I am very 
grateful for this opportunity.
    Russia is using a variety of tactics and means to achieve 
its objectives, and I want to cite just a couple this morning 
as some examples.
    First, Russia is redrawing Europe's borders as it did in 
2014 by invading Ukraine. Russia, as the general also noted, 
continually uses its modernized and formidable military forces 
to intimidate and threaten our European allies. They regularly 
fly into European airspace with their transponders off and show 
up in their territorial waters.
    Russia is also weaponizing stolen information that it 
obtains through hacking, as we saw it do in our elections last 
fall. And it is interfering in the political processes of our 
European allies, as it is doing right now with the French 
elections that will take place in May.
    Russia spends a significant amount of money on its vast 
network of propaganda outlets. The Russia Today office in 
Washington alone has a $400 million budget, and there are now 
more YouTube subscribers to Russia Today than any other 
broadcaster, including the BBC, which has a significant global 
reach.
    And according to our own intelligence community, Russia is 
one of the most sophisticated actors in cyberspace. As you all 
know, it has penetrated the computer systems at the White 
House, at the State Department, and U.S. critical 
infrastructure. It is doing that to our allies in Europe as 
well.
    So what have we done about this in recent years, 
particularly in light of what Russia did in Ukraine in 2014? We 
have done a number of things. We have worked to create new 
tools with our European allies. We have worked to isolate 
Russia. We kicked Russia out of the G8, returning that forum to 
the G7. We have reassured our European allies by putting more 
posture in Europe and providing them with more resources. We 
imposed sanctions. And we, of course, have supported Ukraine.
    But despite all of that, Russia continues with its 
aggressive behavior in its immediate neighborhood and beyond. 
And at home, as Senator Cardin noted, it is curtailing the 
press. It is weakening civil society and suppressing the 
opposition.
    We are now at a point where the new administration is 
weighing its options and looking at how we carry forward with 
the U.S.-Russia relationship. And as the administration looks 
at that relationship and determines the way forward, I would 
make five brief recommendations.
    First, make any change in U.S. policy conditional on 
Russian behavior. Put the onus on Russia. Do not give away 
anything for free.
    Two, be very wary, as the general noted, of aligning with 
Russia in Syria. They have very little to offer.
    Three, do not do anything without consulting our European 
allies first. To the extent that we want to engage with the 
Russians, we should do so in consultation with our closest 
allies.
    Four, as Senator Cardin also noted, let us get to the 
bottom of what Russia did in our election through a bipartisan 
commission to prevent and deter these types of attempts in the 
future.
    And, lastly, I would suggest that the administration work 
with Congress to address the threat of Russia's very aggressive 
cyber behavior.
    I do not want to leave you with the impression this morning 
that I do not support engaging with Russia. I do. And I think 
there have been many points in our history where we have 
engaged Russia, and it has served both our interests. We did so 
during the Cold War, and we have done so since the end of the 
Cold War.
    But I think we have also learned some very important short-
term lessons about the dangers of short-term deals, and that 
Russia tends to overpromise and under deliver.
    Therefore, I think we should proceed with caution and 
ensure that we are doing everything to protect our relationship 
with our European allies.
    Thank you.
    [The prepared statement of Ms. Smith follows:]

                The Prepared Statement of Julianne Smith

                 the u.s.-russia bilateral relationship
    Chairman Corker, Ranking Member Cardin, and members of the 
committee, thank you for the opportunity to testify this morning on the 
United States, the Russian Federation, and Challenges Ahead. The U.S.-
Russia bilateral relationship is fraught with more tension that at any 
point since the end of the Cold War. Ever since President Vladimir 
Putin returned to power in 2012, the bilateral relationship has 
increasingly soured, and today, Russia poses a serious threat to the 
security and interests of the United States and its allies in Europe. 
Russia is engaged in a sophisticated, long-term strategy to undermine 
the rules based order that the United States and its allies constructed 
after World War II. Russia's tactics aim to undermine our democratic 
institutions, sow divisions within NATO and the EU, and carve out a 
sphere of influence. Because of Russia's blatant and continuous efforts 
to undermine U.S. interests at home and abroad, the role that Congress 
plays to defend these interests is more important and necessary than 
ever before.
    As we speak, Russia is deploying a wide array of tools to achieve 
its objectives, including military, cyber, intelligence, and economic 
efforts aimed at harming the United States, exacerbating rifts in 
Europe, and coercing neighboring states to make concessions to Russian 
interests. Most alarmingly, Russia has redrawn Europe's borders for the 
first time since World War II, and assaulted neighboring states with 
military force. Russia invaded Georgia in 2008 and Ukraine in 2014 when 
those states took steps to integrate more closely into the West. 
Russia's support for separatists in eastern Ukraine, designed to 
subvert Ukraine's sovereignty, continues unabated while the Kremlin 
continues to lie about the true nature of its intervention there. The 
fighting in eastern Ukraine, which has intensified in the past week, 
has claimed the lives of around 10,000 Ukrainian soldiers and civilians 
since 2014 while inflicting enormous costs on the Ukrainian economy.\1\
    The Russian military has also been deeply involved in the ongoing 
conflict in Syria, where since September 2015 it has worked with the 
Assad regime to combat opposition forces. Despite Putin's outward claim 
that his intervention is aimed at eradicating terrorist groups, the 
bombing campaign has dramatically improved the position of Assad's 
forces while doing little to weaken the Islamic State (IS) and other 
extremist groups operating within Syria's borders. Senior U.S. 
officials have said that Russia's intervention changed the calculus of 
power in Syria completely, leaving Assad in a much stronger 
position.\2\ Efforts by the United States to reach a political 
settlement in Syria have gone nowhere due to Russian stonewalling and 
repeated ceasefire violations. Humanitarian organizations and 
journalists have for months reported extensively on Russian bombing of 
civilians, hospitals, and schools.\3\
    Military operations like these have allowed Russia to showcase some 
of its new capabilities, doctrine, and training. Since 2011, Russia has 
been modernizing its nuclear forces and honing new conventional 
capabilities to the tune of $700 billion. In addition to conducting 
operations abroad, Russia has used its newly-modernized and more 
formidable forces to routinely threaten U.S. allies. Russia regularly 
conducts largescale snap exercises near its western borders while 
sending warplanes and submarines to skirt allied airspace and waters, 
often turning off transponders or engaging in maneuvers that risk 
accident or miscommunication. Russian submarine activity in the Baltic 
and Arctic Seas is at a post-Cold War high, and coincides with years of 
deterioration in U.S. and allied anti-submarine warfare (ASW) 
capabilities.
    In addition to dramatically modernizing its military forces, Russia 
has deployed hybrid forms of information and cyber warfare in ways 
that, until now, have been unfamiliar to most Americans. By weaponizing 
stolen information and propagating disinformation, Russian intelligence 
services have worked to discredit the United States both at home and 
abroad, disrupt its foreign policy, and sow divisions internally. The 
most recent glaring example, of course, was Russia's intervention in 
the 2016 U.S. presidential election, which the Intelligence Community 
confirmed was aimed at aiding the election of President Trump and 
undermining Americans' confidence in our electoral system.
    Russian intervention in foreign elections to advance its interests 
is not a new phenomenon, and it is not confined to the United States. 
The governments of Germany and France have sounded alarm bells that 
Russia is currently conducting similar operations on their territory in 
advance of national elections this year, targeting candidates thought 
to be unfriendly to Russian interests. Throughout Europe, Russia 
supports (both politically and financially) populist parties that fuel 
anti-EU and anti-immigrant sentiment. One example of such assistance 
was a Russian bank's loan of over $11 million to French presidential 
candidate Marine Le Pen's National Front, which promises to hold a 
Brexit-style referendum on continued French membership in the EU should 
it win elections this spring. If Le Pen wins and removes France from 
the European Union, it is unlikely that the European project will 
survive, news that Moscow would no doubt celebrate. President Putin 
knows that a failed EU would have dire consequences for the United 
States and the global economy.
    Russia also spends significant resources on a vast network of 
propaganda outlets, including Russia Today (RT) here in the United 
States, to disseminate disinformation that weakens democratic consensus 
and strengthens the political fringe. RT reportedly spends $400 million 
on its Washington bureau alone.\4\ RT has more YouTube subscribers than 
any other broadcaster, including the BBC.\5\ Russia oversees dozens of 
other ``news'' sources in tandem with RT, seeding salacious stories 
through one website that are picked up and amplified through others. 
Deep in the shadows, Russia employs hundreds of English-literate young 
people--many aspiring writers--to operate a vast network of fake online 
identities. In a 12-hour shift, these professional internet ``trolls'' 
might be expected to write 15 blog posts and 200 comments,\6\ the tone 
and content of which are dictated by overseers from the Kremlin. The 
goals of these efforts vary. Sometimes, the goal is to ``stack tinder, 
throw matches, and see what happens.'' \7\ Other times, the 
misinformation campaigns have narrowly defined policy objectives and 
targets.
    Russia's ability to wage information warfare has been greatly aided 
by its heavy investments in cyberspace, where the United States remains 
ill-equipped to counter or deter its aggressive probing. Russia's 
activity in this domain reflects an updated national security strategy 
that emphasizes asymmetric tactics to exploit vulnerabilities in 
adversaries while weakening their ability and resolve to counter 
Russian policy. In recent public reports, the U.S. Intelligence 
Community identified Russia as one of the most sophisticated nation-
state actors in cyberspace. Significant Russian cyber incursions in the 
United States have included penetrations into the computer systems of 
the White House and State Department as well as critical 
infrastructure.
    Similarly, European capitals have suffered cyberattacks that have 
debilitated national institutions. This happened in Estonia in 2007 
when a barrage of attacks disabled the websites of entire ministries, 
banks, companies, political parties, and media publications. Similarly, 
last year Germany experienced a slew of attacks of likely Russian 
origin on major national institutions. The West's collective 
vulnerability to Russian cyber aggression led NATO Secretary General 
Jens Stoltenberg to declare cyberspace a new operational domain 
alongside sea, air, and land, meaning that a cyberattack from Russia or 
anyone else could trigger the Alliance's Article 5 obligations.\8\ 
National governments and multilateral institutions have launched new 
efforts to fortify our collective cyber defenses but much more remains 
to be done to deter, detect, and disrupt such attacks.
    Russia also relies on energy coercion to intimidate our European 
allies and fuel instability in its near abroad. For years, European and 
American leaders have promoted greater energy diversification in Europe 
to reduce the continent's dependence on Russian gas. But despite those 
calls, Russia remains capable of blackmailing European nations with 
energy resources, threatening to cut off gas supplies at the height of 
winter and advancing pipeline projects that harm the energy 
independence of Allied nations highly exposed to Russian gas. 
Unfortunately, there are significant policy divisions among Europeans 
on future and ongoing energy projects involving Russian gas and 
investment. These political divisions give Putin a strong opening to 
drive Europeans even farther apart while expanding Russian influence 
over the continent.
                          recent u.s. strategy
    After Russia invaded Ukraine and annexed Crimea in 2014, America 
and its allies undertook a series of punitive measures to signal 
transatlantic unity and resolve. First, the United States and Europe 
imposed tough sanctions on Russia, targeting government officials and 
other individuals responsible for Russia's Ukraine policy and human 
rights abuses. The West then took steps to isolate Russia on the world 
stage. In 2014, Russia was asked to leave the G8, transforming the Head 
of State gathering back into the G7. Working with its NATO allies, the 
United States also took steps to reassure Central and Eastern Europe by 
stationing rotational troops in the Baltic States and Poland and 
staging exercises on their territory. Finally, because Ukraine's 
territorial integrity is a common interest to both sides of the 
Atlantic and reflects decades of American commitment to Europe's peace 
and security, the United States and its allies stepped up political, 
financial, and military support for Ukraine.
    Few would disagree that the European and U.S. sanctions 
(conveniently paired with a drop in oil prices and Putin's economic 
mismanagement) have hurt the Russian economy. Almost every indicator--
the value of the ruble, capital flight, living standards, growth, 
investment, access to foreign capital markets, or federal budget 
constraints--points to an economy that is weaker and more unstable than 
it was just a few years ago. At best, the Russian economy faces slow 
growth; at worst, it faces prolonged stagnation.
    Despite Russia's flailing economy, though, President Putin has yet 
to halt his aggressive behavior in his neighborhood and elsewhere. 
Overseas, Putin continues to both believe he is at war with the West 
and pursue a multifaceted strategy to undermine the rules based order, 
transatlantic unity, and U.S. leadership. At home, he continues to 
curtail freedom of the press, weaken civil society, and suppress any 
opposition. According to two reports by Amnesty International and Human 
Rights Watch, ``Vladimir Putin is presiding over the worst era for 
Russian human rights since the Soviet Union.'' \9\ Just this week, a 
prominent Russian opposition leader, Vladimir Kara-Murza, suddenly fell 
into a coma at a Moscow hospital and now clings to life. His current 
illness is eerily similar to his sudden incapacitation in 2015, which 
doctors concluded was ``acute intoxication by an unknown substance.'' 
As members of this committee may recall, Mr. Kara-Murza submitted a 
letter to this committee last month during Secretary of State 
Tillerson's confirmation hearings, warning us all that Russia's 
practice of violently targeting opposition figures has intensified in 
recent years.\10\ Members of the committee may also recall that two 
years ago Kara-Murza's close mentor and friend, Boris Nemtsov, was 
gunned down just outside the Kremlin.
                             the way ahead
    The new administration is currently contemplating how to approach 
Russia going forward. What seems clear is that instead of taking steps 
to make the current strategy more durable, innovative, and effective, 
the President will likely opt for a new grand bargain. Throughout the 
campaign and during the transition, President Trump made several 
statements expressing an interest in engaging the Russians with the 
hope that the United States and Russia could enhance their counter 
terrorism cooperation. The president has also expressed an admiration 
for President Putin and his leadership style. Last weekend, in an 
interview with Bill O'Reilly on Fox News, President Trump put Russia 
and the United States on the same moral plane, suggesting that both 
countries kill people. Those statements and others have led many to 
conclude that the administration is indeed leaning towards the idea of 
grand bargain.
    As the administration weighs its policy choices regarding Russia, I 
recommend the following:
    First, make any changes in U.S. policy conditional on Russian 
actions. Engaging face to face with the Russian government makes sense. 
This is something the Obama administration did even during some of the 
darkest periods in the bilateral relationship. But even so, President 
Trump should proceed with considerable caution. Experience proves that 
President Putin often overpromises and under delivers. The most recent 
example of this was in regards to U.S. efforts to establish a ``Joint 
Implementation Center'' with Russia in the fall of 2016 to conduct 
strikes against IS. Despite promises to the contrary, Russia failed to 
meet the agreed upon conditions for the establishment of such a center, 
causing the entire concept to collapse. The new administration should 
therefore ensure that any change in U.S. policy be conditional. For 
example, the United States should make clear to the Russians that it 
will not even consider lifting economic sanctions until Russia has met 
its commitments outlined in the Minsk Protocol. Putin knows full well 
that unraveling sanctions is far easier than imposing them, which can 
take years.
    Second, be wary of aligning with Russia in Syria. President Putin 
likes to tell the world that Russia is fighting the Islamic State in 
Syria. Before the new administration seeks ways for Russia and the 
United State to do more to combat the Islamic State together, it should 
seek greater clarity on what exactly the Russians have done in Syria to 
date. Contrary to what President Putin has said about Russia's actions 
in Syria, almost 80 percent of the Russian strikes in Syria have been 
in areas not held by the Islamic State.\11\ Instead, Russia has 
targeted non-extremist opposition forces and has indiscriminately 
bombed civilians, hospitals, and homes around the country. Why? 
Russia's overarching goal, along with Iran's overarching goal, is to 
keep its ally Bashar al-Assad in power.
    Russia's geopolitical goals are thus fundamentally opposed to those 
of the United States in Syria. The new administration should therefore 
be very wary of aligning with Russia inside Syria. Doing so would 
bolster Russia's strategic position in the Middle East and provide 
cover for Russian war crimes that have killed tens of thousands of 
civilians under the pretense of fighting terrorism. It would also make 
the United States a de facto partner with Iran, the very country the 
new administration just ``put on notice.'' In addition, it would lead 
the United States to partner with the Assad regime, which for six years 
has perpetrated brutal war crimes against its own people with Russia's 
cover and assistance. Allying tacitly with the Assad regime could come 
back to haunt the United States down the line by provoking more radical 
extremist sentiments and attacks against us, and also by alienating 
important regional allies that have opposed the Assad regime for 
years.\12\
    Third, don't do anything with Russia without consulting European 
allies. While almost all of America's allies in Europe would support 
the new administration engaging with the Russian government, no ally 
wants this to occur in isolation. If the new administration were to cut 
a grand bargain with Russia above the heads of U.S. allies in Europe, 
the very foundation of the transatlantic relationship would start to 
crack. The EU has been a stalwart partner in imposing sanctions on 
Russia even though it has felt the negative consequences of those 
sanctions far more than the United States. The new administration 
should therefore consult European allies on its Russia strategy before 
reaching out to Moscow. And it should do so not just out of respect for 
our European allies but because many countries in Europe have valuable 
insights and experience in working with President Putin and the Russian 
government more broadly.
    Fourth, reassure skittish allies about U.S. commitments to NATO and 
European security. President Trump's rhetoric about NATO's obsolescence 
before and after the election has alarmed U.S. allies in Europe at a 
time when Moscow is actively seeking to undermine the future of the 
European project. Yes, European allies can and should do more to 
enhance their defense budgets. But naming and shaming individual allies 
and calling into question our commitment to uphold Article 5 of the 
NATO Treaty only plays into Russia's hands. President Putin wants 
nothing more than a divided alliance and a split in the transatlantic 
unity that has been on such prominent display in recent years. We 
should not grant him that victory and instead engage with Russia from a 
position of strength. Russia wishes it had the vast network of partners 
and allies that the United States has today. We should not do anything 
to jeopardize that network.
    Fifth, let's get to the bottom of what happened in our election. 
President Trump has publicly accepted the Intelligence Community's 
conclusion that Russia was responsible for intervening in the 2016 
election. But countless questions remain about possible coordination 
between U.S. nationals (especially anyone with official ties to either 
political campaign) and Russian officials; what other vulnerabilities 
in the U.S. political system Russia may be working to exploit; and 
perhaps most importantly, how our government--working with allies--can 
prevent and deter such attacks in the future. We need an independent 
commission of foreign policy, national security and elections experts 
to set the record straight on what happened. As Congressman Eric 
Swalwell, ranking member of the CIA subcommittee, of the House 
Permanent Select Committee on Intelligence said recently, ``The specter 
of foreign leverage over our incoming president should send a chill 
down every American's spine.'' \13\ Congress must make investigating 
Russia's intervention in the election a top priority, and I urge you to 
share your findings with the American people as openly as possible.
    Sixth, continue to highlight Russia's dismal human rights record. 
In all the talk about Russian actions abroad, we sometimes lose sight 
of what President Putin is doing at home. The United States and its 
European allies should speak clearly in support of democracy and human 
rights in Russia; speak out against Putin's internal repression; and 
highlight political persecution in Russia. We should also pursue 
opportunities to work with elements of Russian civil society to support 
democratic governance, human rights (including LGBT rights), freedom of 
speech and transparency.
    Finally, work with Congress to address the threat of Russia's cyber 
aggression. We know that Russia's intelligence agencies have been 
breaking into the United States' computer networks for decades, and 
while these attempts have wreaked havoc on our government's networks 
and imposed costs on companies that lose proprietary information in the 
private sector, we have been slow to respond decisively. The greatest 
mistake we can make at this juncture is to let up on calling out the 
Russians publicly for their brazen cyber espionage. Congress must fund 
efforts to bolster network security and work with the administration to 
coordinate a whole-of-government approach to fortify our networks 
against Russian cyberattacks. I urge this committee in particular to 
hold more hearings on this issue and impress on all your colleagues and 
other parts of the government the serious national security 
implications of Russia's increasingly brazen use of this asymmetric 
tool of warfare. In this critical endeavor, the United States should 
not go at it alone; our NATO allies also find themselves on the 
receiving end of aggressive and destructive Russian cyberattacks. The 
administration should elevate this issue to the top of the NATO's 
priority list.
                               conclusion
    In conclusion, engaging the Russians is a laudable goal, one that 
at different points in our history has served U.S. interests.\14\ But 
history also tells us a lot about the risks of short-term deals that 
put the liberal order at risk. The United States and its European 
allies have spent 70 years creating and reforming a collection of 
institutions that protect and promote the values we share. The new 
administration must avoid doing anything that would jeopardize that 
system, which, while imperfect, is also indispensable.
    The new administration, despite the risks stated in this testimony 
and many others, may ultimately take steps to lift sanctions against 
Russia without demonstrable steps on Russia's part to implement Minsk 
II and withdraw its troops and materiel from Ukraine. Before that 
occurs, Congress should re-impose those sanctions legislatively over 
the President's veto. It is because of situations like this that the 
U.S. system of checks and balances is so important, and today, 
Congress's check on the President's power to conduct foreign policy has 
never been more needed. If Russia's foothold in eastern Europe becomes 
permanent, decades of post-World War II American policy dedicated to 
bolstering the freedom, unity, and prosperity of the European continent 
will have gone to waste. This would not only be a dereliction of our 
commitments to our European partners, but it would be in direct 
conflict to the very values that the United States embodies. In sum, 
Congress must stand at the ready to defend the liberal order, which has 
advanced U.S. values, interests, and security for the past 70 years.

------------------
Notes

    \1\ Inna Varenytsia and Nataliya Vasilyeva, "Deaths Mount Daily as 
Renewed Fighting Hits Eastern Ukraine," Associated Press, January 31, 
2017. http://www.usnews.com/news/world/articles/2017-01-31/3-ukrainian-
troops-killed-in-fighting-in-eastern-ukraine.
    \2\ Greg Miller, "U.S. Officials: Russian Airstrikes Have Changed 
`Calculus Completely' in Syria," The Washington Post, February 9, 2016, 
https://www.washingtonpost.
    \3\ Max Fisher, "Russia's Brutal Bombing of Aleppo May Be 
Calculated, and It May Be Working," The New York Times, https://
www.nytimes.com/2016/09/29/world/middleeast/russias-brutal-bombing-of-
aleppo-may-be-calculated-and-it-may-be-working.html.
    \4\ "Portman Delivers Speech on Bipartisan Bill to Counter Foreign 
Government Propaganda," Office of Senator Rob Portman, March 16, 2016. 
http://www.portman.senate.gov/public/index.cfm/2016/3/portman-delivers-
speech-on-bipartisan-bill-to-counter-foreign-government-propaganda.
    \5\ The Director of National Intelligence, "Background to 
`Assessing Russian Activities and Intentions in Recent U.S. Elections': 
The Analytic Process and Cyber Incident Attribution," the Office of the 
Director of National Intelligence, January 6,2017, https://www.dni.gov/
files/documents/ICA--2017--01.pdf.
    \6\ Adrian Chen, "The Agency," The New York Times, June 2, 2015, 
https://www.nytimes.com/2015/06/07/magazine/the-agency.html?--r=1.
    \7\ Emerson T. Brooking and P.W. Singer, "War Goes Viral," The 
Atlantic, November 2016, https://www.theatlantic.com/magazine/archive/
2016/11/war-goes-viral/501125/.
    \8\ Colin Clark, "NATO Declares Cyber a Domain, NATO SecGen Waves 
off Trump," Breaking Defense, June 14, 2016, http://
breakingdefense.com/2016/06/nato-declares-cyber-a-domain-nato-secgen-
waves-off-trump/.
    \9\ Harriet Alexander, "Vladimir Putin creating `worst human rights 
climate since Soviet times,'" The Telegraph, April 24, 2013. http://
www.telegraph.co.uk/news/worldnews/vladimir-putin/10015065/Vladimir-
Putin-creating-worst-human-rights-climate-since-Soviet-times.html.
    \10\ Andrew Kramer, "Putin Critic, Who Said He Was Poisoned in 
2015, Falls Into a Coma," The New York Times, https://www.nytimes.com/
2017/02/06/world/europe/russia-vladimir-kara-murza-putin.html?--r=0.
    \11\ "Majority of Russian Strikes in Syria Aren't Targeting ISIL," 
Reuters, October 21, 2015. http://www.newsweek.com/majority-russian-
airstrikes-syria-arent-targeting-islamic-state-385710 12 Hal Brands and 
Colin Kahl, "The Strategic Suicide of Aligning with Russia in Syria," 
Foreign Policy, February 7, 2017. http://foreignpolicy.com/2017/02/07/
the-strategic-suicide-of-aligning-with-russia-in-syria/.
    \12\ Hal Brands and Colin Kahl, "The Strategic Suicide of Aligning 
with Russia in Syria," Foreign Policy, February 7, 2017. http://
foreignpolicy.com/2017/02/07/the-strategic-suicide-of-aligning-with-
russia-in-syria/.
    \13\ Eric Swalwell, "We Need an Independent Committee on Russia 
Hacking Now," The Guardian, https://www.theguardian.com/commentisfree/
2017/jan/12/we-need-independent-commission-russia-hacking-now.
    \14\ During and after the Cold War, our nations reduced our nuclear 
stockpiles through arms control agreements. New START, which President 
Obama signed with President Dmitry Medvedev in 2010, will reduce U.S. 
and Russian deployed strategic warheads by two-thirds from the original 
START Treaty. Russia joined us in imposing sanctions on Iran, without 
which the JCPOA could not have been negotiated.

    The Chairman. Thank you for that testimony. I just would 
say to folks, we have a Republican witness and a Democratic 
witness.
    Senator Cardin. Which one is which?
    The Chairman. You pick. I do not care. It does not matter 
to me. They are both good.
    But the fact is that they are both saying the same thing, 
generally speaking.
    We have, from my perspective, an opportunity that we have 
not had in 10 years on this committee, to work in a coordinated 
fashion with an administration that is coming on to really 
develop thoughtful, meaningful policies that can be 
coordinated. I know that is not well-received yet by all. I see 
an opportunity for us.
    And I just hope that we will take advantage of an 
opportunity for the first time since I have been here in a 
decade, to take full advantage of helping shape policies 
towards Russia, towards Iran, and towards other places.
    And, again, I point to these witnesses and say there sure 
is a lot of agreement amongst us relative to how to deal with 
them.
    With that, I will reserve the rest of my time and turn to 
Ben Cardin.
    Senator Cardin. Well, Mr. Chairman, I certainly agree with 
that assessment, that this committee can play a major role. And 
I think we already have seen some impact with Ambassador 
Haley's comments on the sanctions. So I really do believe you 
are absolutely correct.
    And we need to see how we can weigh in with the 
administration so we have unity, because that is always the 
best. And where we need to take congressional action, we should 
make sure we can do that in a nonpartisan way in the best 
interests of our country.
    There is so much to talk about, and I will limit myself 
only to the 5 minutes I have. So I am not going to be able to 
cover everything I would like, and we will continue this 
discussion beyond today.
    But we have the European Deterrence Initiative as an effort 
to show, from a military point of view, we are prepared to 
stand up to Russia by placing our strength in NATO along the 
areas that you mentioned, that there is the Russian population 
in NATO countries. That is, I think, a very smart, strategic 
move.
    But I want to go to a related subject, Ms. Smith, that you 
talked about, and that is that Russia's using democratic 
institutions to try to undermine democratic institutions. We 
saw that with our election process here in the United States.
    We know that Europe is vulnerable to this, with the way 
that they use propaganda to try to bring down the free 
democratic institutions of Europe. And we have suggested 
perhaps a European democracy initiative with our European 
allies to shore up the democratic institutions against the 
propaganda and cyber and everything else that Russia is doing 
to try to get false information out and to undermine the 
democratic rule of law.
    Can you just comment a little bit about how useful that 
would be for a coordinated effort among Europe and the United 
States to protect our democratic institutions?
    Ms. Smith. Sure. Thank you, Senator.
    Absolutely, I think such an initiative would be welcomed by 
our European allies and one that makes perfect sense. Europe 
has been, frankly, dealing with what we are seeing from Russia 
in many ways longer than we have. Many of the countries in 
Central and Eastern Europe, but now in Western Europe as well, 
have been dealing with an array of kind of information-shaping 
policies and tactics by the Russian Government to try and alter 
the political dynamics inside these countries.
    Sometimes their goal is to fuel instability by fanning the 
flames and concerns of Russian minorities, and creating some 
doubts among those populations about how their national 
governments are responding to their needs. Sometimes they are 
simply supporting either politically or financially a 
particular party.
    It has been well-documented that Russia has actually loaned 
Marine Le Pen, her actual campaign in France, money. It is 
expected that they will do that again in the lead-up to the May 
election in France.
    And so this is a challenge that many of our European allies 
are grappling with. Anything that we could do to share lessons 
with our European allies and develop better tools to both 
detect what is going on and then figure out what we can do 
collectively to push back on these efforts and also expose them 
would be extremely helpful.
    Senator Cardin. And we saw that in Montenegro parliamentary 
elections, where they tried to disrupt it so that Montenegro 
would not be eligible to join NATO. We see their activities in 
Georgia today to make it more difficult for Georgia to become a 
NATO partner. We see it over and over again.
    General, I want to ask you about a dilemma we have. Senator 
Corker and I both agree that the international community did 
not show enough resolve in support of Ukraine. That left a void 
where Russia was free to interfere not only with taking Crimea, 
but in eastern Ukraine. And this committee looked at providing 
a much stronger response by the United States, including 
providing lethal weapons to Ukraine.
    We were rebuked by the administration, and the main reason 
they said is that Europe--they wanted to be in step with 
Europe, and Europe was not anxious for the United States to 
provide that type of assistance to Ukraine.
    So my question to you is, you indicate you want us to work 
in concert with Europe, and I agree with that. But it seems to 
me that Europe is a little bit timid at times where the United 
States could do more. How do we reconcile that, so that we do 
not give space to Russia for their aggressive activities?
    General Breedlove. So thank you, Senator. And if I have 20 
seconds, I would also like to add a remark to your first 
question.
    But to the latter concern, I think it is important when we 
deal with Russia that we are consistent, that we either do not 
reward bad behavior or that we do not let bad behavior go 
unaddressed. And I was supportive of supplying what were at the 
time termed defensive lethal weapons. I do not really like that 
distinction. Any weapon can be used defensively or offensively.
    But I was in favor of allowing Ukraine to defend itself. I 
believe that every Nation has a right to defend itself. And so 
I do believe that, although we do want to act as often as we 
can in concert with our allies, and many of our allies were 
actually in favor of some of that, some were not, but I do 
believe that we had an opportunity to give Ukraine a better 
capability to defend itself in the Donbass. And as I sort of 
mentioned in my opening remarks, I think that is something that 
needs to be relooked.
    Senator Cardin. Thank you.
    The Chairman. Did you want to say something else about 
his----
    General Breedlove. I do not want to overuse the Senator's 
time, but I would just say that, broadly, I would expand the 
problem a little bit.
    Mr. Gerasimov, my general officer counterpart in Russia, 
describes what he calls war by other means, indirect means. I 
call it war below the lines.
    What can we do--``we'' being the Russians--do in a nation 
below that threshold at which either the nation or the 
international community reacts? And I believe that Mr. 
Gerasimov and others see this different in every nation. They 
can get away with more in one than the other.
    I think shocking is how far they believe now they can get 
away with this in our nation, as witnessed in what happened in 
the election. And so your initiative would be a tool to take 
the field to counter this war below the lines.
    I do not believe that we in NATO, the European Union, or 
the West, in general, have really come to an understanding of 
how we are going to react to this war by indirect means or war 
below the lines--cyber, disinformation campaigns, coercion with 
force, all of it lumped together in this war. We need a broader 
approach to how we counter it.
    Senator Cardin. Thank you. I am glad we gave you an extra 
few minutes.
    The Chairman. Senator Paul?
    Senator Paul. Thank you for your testimony.
    General Breedlove, with regard to dealing with Russia, do 
you think that the problems can be discussed region by region? 
Or do they have to be discussed altogether? Can Ukraine be 
discussed somewhat separate from Syria, somewhat separate from 
cyber incursions, somewhat separate from the Baltics?
    General Breedlove. Senator, thank you. I have testified to 
this before in front of another committee in the Senate, and I 
remain committed to my original line of answer, and that is 
that everything Russia does is connected.
    Pressure in one nation could be pressure only on that 
nation. It could be signaling the Baltics. Pressure in Syria 
could be only about Syria. It could be signaling that their 
military is capable of doing things in Europe. And so I believe 
that we need to look at Russia in a very interconnected way.
    I do not disqualify that we could begin to find sub-areas 
where we might be able to begin to reestablish a trust 
relationship, which, by the way, we do not have now. So maybe 
sub-areas can be addressed, as I mentioned in my remarks, to 
begin conversations to reestablish trust.
    But I do believe that everything Russia does is in the 
context of a larger attempt to diminish the West and to raise 
Russia.
    Senator Paul. Do you think if we were looking at the Syria 
situation somewhat separate and not necessarily dependent on 
the rest of the world--you mentioned what most people agree 
with, that the Russians have been more concerned with 
supporting Assad than they have with extremists.
    But that also, I think, is related to the fact that the 
rest of the world has been more concerned with getting rid of 
Assad. They feel as if they want to defend their base there. I 
do not think they are giving their base up. I think that is not 
something they are going to give up, that base. To them, they 
see the base as important, and Assad as an important protection 
of their naval base there.
    You did mention something, though, that would have been 
pretty provocative to a lot of people, to actually consider 
whether or not the time has come to reconsider conditions as 
they are on the ground, that Assad is probably not going 
anywhere.
    I do not think we necessarily need Russian troops. In fact, 
I think Russian troops or American troops will be equally bad 
in the taking back of Raqqa. But I think if you did not have 
Assad's forces also battling whoever comes into the region--we 
had people here in the committee just recently saying, ``Oh, 
well, the Kurds will take Raqqa.'' Yes, I think there is going 
to be a lot of people unhappy about the Kurds taking Raqqa, 
including Assad's forces.
    So I continue to believe there needs to be some kind of 
arrangement, and some of it is maybe regional autonomy to where 
people are within Syria as of today. But I think you continue 
to need that to have a final outcome of any sort there.
    But maybe you could expand a little bit upon what you think 
the odds of--or whether the reasonability of actually 
discussing whether or not we do not have a precondition that 
Assad goes.
    General Breedlove. So, Senator, thank you.
    If I said that I supported talking to Syria in my remarks, 
I misstated. I see a lot of problems with working with Russia 
and Syria, and I will talk about those in a moment.
    I still believe that, in Syria, Russia has a hierarchy of 
what they are trying to do, and getting after ISIL is the last 
of that hierarchy. It is propping up the murderous regime of 
Assad. It is retaining access to naval and air bases in Syria. 
It is raising the stature of Russia as a great power out there 
in the world. It is then getting after the moderate opposition, 
which in some cases we support. And then I would say last of 
the five, Russia is after ISIL or Daesh.
    So I do not see their priorities the same as ours in any 
way, shape, or form in Syria.
    Clearly, we all want to get after Daesh and/or ISIL, 
however you would like to refer to them. And having a 
conversation with Russia I do not think is out of bounds, but 
we need to be clear-eyed and wide-eyed.
    My biggest concerns about that is, to align ourselves with 
Iran and Russia in Syria would be very problematic, to me. To 
align ourselves with Iran and Russia in support of Mr. Assad 
would be very tough for me to deal with.
    As an F-16 fighter pilot, watching the way bombing has been 
conducted in Syria, to try to associate our type of conducting 
this conflict in Syria with Russia's way of conducting this 
conflict in Syria would be an affront to the way that I believe 
we should conduct that.
    Senator Paul. I am not arguing there is any equivalency. I 
am arguing that the world is what it is, and we can say that 
Assad must go, but we have been saying that for a long time. I 
would say, at this point, it is unlikely that Assad goes.
    The Chairman. Thank you.
    Before turning to Senator Coons, if Russian troops were 
used to clear Raqqa, is it likely that the number of civilian 
casualties, because of the way they go about doing their 
business, would be equivalent to the way that they do bombing 
right now?
    General Breedlove. Senator, I am not really sure that I can 
draw that clear of a line. I think when you do ground warfare, 
it is going to be tough any way you do it.
    But I do agree with every statement of this committee so 
far. I do not draw equivalency between the way we do business 
and the way they do business.
    The Chairman. Senator Coons?
    Senator Coons. Thank you, Chairman Corker and Ranking 
Member Cardin. Thank you for lifting our eyes to the very real 
prospect that this is a moment and a challenge where this 
committee is particularly relevant in a way it has not been in 
the past decade.
    And thank you for your great testimony, General Breedlove 
and Ms. Smith, and for echoing a shared view, a very clear-eyed 
view, and, I will remind you, a view that was raised repeatedly 
with now-Secretary Mattis and Secretary Tillerson about do they 
see Russian aggression clearly.
    As you both testified, in recent years, the Russians have 
invaded and occupied Ukraine, armed and supported rebels in 
eastern Ukraine. They have committed atrocities in support of 
the murderous regime of Bashar al-Assad. They have sold an S-
300 missile defense system to Iran. And they have directly 
attacked our democratic system.
    That we are not in a strong and persistent bipartisan way 
directly engaged in understanding this threat and pushing back 
on this threat concerns me gravely. And I am grateful that this 
committee is stepping up to this challenge.
    So it seems to me that, as you testified, knowing that open 
and democratic societies that are critical both military and 
economic and political allies of ours face imminent elections, 
the Dutch elections, French elections, German elections, and 
hearing from you what I have heard from them, that they believe 
they also face this sort of hybrid warfare, intentional Russian 
efforts to undermine their democracy, I am struck that we are 
not pushing relentlessly for a united effort.
    Senator Cardin asked about what might we do to promote a 
democratic initiative in Western Europe. I will remind you some 
questioned the relevance of NATO in the course of the campaign. 
The Heritage Foundation has said that our alliances keep us 
safe, that NATO is not an act of charity. NATO is an act of 
self-interest and self-defense. It raises the cost to Russia of 
its aggression. And it is unclear whether we are united in our 
commitment to NATO.
    I agree with you that before anything is done to reset the 
table with Russia, we should meet with our NATO allies first 
and affirm the Warsaw commitments, and that we should make no 
move in Syria that strengthens Russia's hand on the ground and 
that would drag us into, I think, a devastating conflict.
    If I could just ask both of you to speak to, given the 
hybrid warfare and this new approach to warfare below the line, 
that we have directly been affected by here in this country, 
what would you do to strengthen our Western European allies, 
their democratic societies, their resolve and their 
capabilities to push back against the weaponization of 
information that is misused after being expropriated, and the 
misuse of propaganda, and, in some cases, direct financial 
support for candidates in their upcoming campaigns?
    Ms. Smith. Thank you, Senator. I am going to be honest. 
This period in the transatlantic relationship is dire, and our 
allies are nervous and anxious, very anxious about what is 
happening on their own continent, what is happening in the 
transatlantic relationship, and, frankly, some of the comments 
we have been hearing come out of Washington about the value we 
place on the NATO alliance and our views toward the European 
Union.
    They are under enormous pressure internally by the 
migration crisis, weak economies, and externally by 
counterterrorism challenges, what Russia is doing to their 
democratic systems, the rise of far right and populist parties. 
This is a very troubling time in the relationship.
    In terms of the way forward and the role of this committee 
and what Washington can do, first and foremost, we have to 
reassure our allies. I know there is an exceptionally large 
delegation going over to the Munich Security Conference next 
week. I find that very reassuring. Our allies will be reassured 
to see so many members coming and bringing such a large 
delegation. They are excited to hear from the Vice President. 
They are excited to hear from the Secretary of State.
    I look forward to those comments. I hope we can reassure 
our allies and let them know that we value this relationship, 
and we would do nothing to undermine it.
    The last thing Europe wants to feel is to be in a position 
where Washington and Moscow are actually aligned in an anti-EU, 
anti-NATO position. That would be devastating to the European 
project.
    We should also maintain our force posture in Europe, 
maintain support for the European Deterrence Initiative. We 
should ensure that we are developing new tools inside the NATO 
alliance and working with the EU as well to see what we can do 
in terms of enhancing our counterterrorism cooperation, law 
enforcement, intelligence-sharing.
    There is a long list of things here, and there is plenty of 
work to do. But it must start first and foremost by reaffirming 
our commitment to this project.
    We are not a member of the European Union. We do not have a 
vote in this institution. We do not have a voice. But it is, in 
some ways, an American project, one we have invested a great 
deal in.
    Senator Coons. Thank you.
    General?
    General Breedlove. Let me first say that I join all those 
remarks.
    Second, as a Supreme Allied Commander of Europe past, 
number 17, I am an unapologetic supporter of what NATO means to 
us and what we should be doing in support of NATO.
    If I could just add a little to what was said about this 
war below the lines or hybrid, really, a small part of that is 
military. The rest of it is decidedly nonmilitary and exists to 
contest all of those things that are the rest of our 
government, the rest of what we do.
    And so our allies have a hard time seeing and understanding 
and characterizing it. I talked to them about being able to 
recognize a problem, that it is not normal. Characterize it as 
not a legitimate political issue and then attribute it to an 
aggressor. And if they can get through that recognize, 
characterize, attribute, they can then go to the NAC with an 
Article 4 or an Article 5 and get support. Short of that, they 
may not be supported.
    So we need to look at our own capabilities and capacities, 
and the capabilities and capacities of our allies, to get 
through that recognize, characterize, attribute. Can we see it? 
Can we detect it in cyber? Will we take the field in the 
information campaign? The speed and power of a Russian lie and 
how fast they can create them and how long it takes us to 
debunk them--2 years to debunk the shoot-down of the aircraft 
in eastern Ukraine.
    And so I just believe we need to take the field and begin 
to look at those capabilities that we have and our allies have 
to recognize, characterize, attribute to move out on these 
issues.
    Senator Coons. General, Ms. Smith, thank you for your 
testimony.
    Seven decades of peace in Europe was bought at an enormous 
price in American dollars and lives. And I think we should be 
fighting jointly for NATO and for our European allies.
    Thank you.
    The Chairman. I could not agree more.
    Senator Portman?
    Senator Portman. Thank you, Mr. Chairman.
    And to General Breedlove, you spoke earlier about Ukraine 
and let me just say that when you were Supreme Allied 
Commander, you had the courage to stand for providing the 
Ukrainians the lethal weapons that they needed to defend 
themselves. And as you say, I will not say defensive, because 
they can also be used offensively.
    But one reason I think we have the situation we are seeing 
on the eastern border of Ukraine today, which is dire--the 
Ambassador wants to come see me today about it--is because we 
did not act.
    But you stood up. And you are not just saying it now after 
the fact, and you did so privately and publicly. And I 
appreciate that.
    I think NATO needs to be described better, too. I mean, do 
you think countries in NATO ought to contribute more to the 
mutual defense of all of us?
    General Breedlove. Senator, thank you for that question, 
and I get asked this a lot. And so let me get quickly through. 
I do believe that the nations of NATO need to contribute more.
    Senator Portman. Okay. I do not want to interrupt you, but 
I have a lot of questions, so I just want to get that on the 
record.
    I think they do need to contribute more, a better 
percentage of their GDP. And I think we should not hesitate to 
ask for that and even insist on that.
    Second, I think there is a misunderstanding about the 
importance of NATO. I think the interoperability we have with 
these NATO forces is a force multiplier in ways that perhaps we 
do not explain.
    Can you briefly talk about that, from a military point of 
view?
    General Breedlove. Absolutely, Senator, and then I would 
like two minutes to go back to that first one.
    Senator Portman. We may not get 2 minutes. I have more 
interesting ones for you.
    General Breedlove. Clearly, the interoperability of our 
NATO allies and some of our partners who are not allies is very 
important, because it allows us to quickly assimilate the 
combat power we might need in a tough place.
    That having been said, we all, including our military and 
certainly the militaries of Europe, need to look at our 
readiness and responsiveness in order to be able to respond. 
But maintaining that ability to rapidly integrate and work 
together is clearly a huge deterrent.
    Senator Portman. Interconnected communications, logistical 
interconnectedness, the ability for us to have common tactics 
and doctrines are invaluable, right? And that helps us to be 
able, again, to tell our taxpayers and our citizens this is a 
good investment for our military.
    Let us talk about Russia for a moment. There is a lot of 
discussion about the possibility of aligning with Russia to 
fight ISIS. All of us want to take down ISIS, as you said 
earlier.
    But with regard to that interoperability, can you talk a 
little about what we have with Russia? How effective would a 
joint military campaign be with Russia as an example?
    Even in Syria, should we have the same interests, which, as 
you noted, we seem not to, but with the broader campaign 
against ISIS?
    General Breedlove. Senator, if you would allow me, I will 
talk about problems I think of the U.S. and Russia fighting 
alongside of each other. I think that people with more 
experience in CENTCOM can better speak specifically to the 
Syria piece of it.
    But what I do know is that, in observing what has happened 
in Syria over the past months and years, we do not have the 
same approach to targeting. We talk about collateral damage. 
Yes, we still have some collateral damage, but it is miniscule 
compared to wars of the past.
    We approach protecting nonbelligerent life in a very 
different way. We have a not adequately deep, but deeper bench 
of precision weapons. And what we saw is the Russians used 
precision weapons only for a short time and then went to 
unguided, fairly indiscriminate weaponry.
    I do not find that we are well aligned in the way we would 
conduct a fight and that----
    Senator Portman. We also do not have the interoperability 
in terms of weapons and communications and technology. I think 
it is a point that sometimes is lost in this discussion.
    And I am not suggesting that we do not have the ability to 
work with Russia where we can find common ground. But I think 
it is clear that we do not have the capability with Russia that 
we have, for instance, with our NATO allies, and that ought to 
be considered.
    You talked about warfare before the line, as you called it. 
The Russians sometimes call it the new generation war, and 
Ukraine is a good example of it.
    I appreciate the fact, Ms. Smith, that you talked about 
this issue and specifically the connection between the 
propaganda and the cyberattacks, the troll farms on social 
media, the funding of the useful think tanks, political 
organizations, state-sponsored media, and so on.
    One thing I was concerned about even in how the Obama 
administration responded to what the Russians are alleged to 
have done here with our campaign is that their own executive 
order was designed to punish cyberattacks and hacking and not 
these information campaigns. I think it is much broader than 
that.
    And I guess my question to you would be, how can we be more 
effective? We did establish legislation. Senator Murphy and I 
had put forward this legislation. It was part of the NDAA. It 
is now set up over a 2-year period, $160 million authorized for 
this Global Engagement Center to deal with this broader issue 
of disinformation.
    Is that, in your view, a good idea? That is to consolidate 
all the agencies to make one agency accountable, to actually 
provide grants for NGOs and others to fight back on the 
frontlines? Should we be doing more? And do you agree with me 
that these cyberattacks are a huge problem but that the broader 
problem is really this broader campaign of disinformation?
    Ms. Smith. Yes, absolutely. It is a huge problem and our 
large bureaucratic structures are just ill-equipped to deal 
with this challenge.
    We are not moving fast enough. We are not really working on 
detection, deterrence, our defense of these systems. But most 
importantly, we have not really figured out to date how to link 
up with the private sector and utilize expertise that exists 
above and beyond what the government can offer.
    And I think if we are going to win this information war and 
really come at Russia with a much more effective approach, we 
are going to have to figure out ways in which we can lash up 
the skillsets that we have in the private sector, build better 
trust there to assess our vulnerabilities, and then connect 
with our allies to do so.
    So I support the work that you have put forward, the 
initiatives, legislation, and all the rest. I think we have not 
served this country well with the efforts to date. We have to 
be much more quick on our feet and far more innovative in 
working with a wider set of actors to really get a grip on 
this.
    So I would support that, absolutely.
    Senator Portman. Thank you both.
    The Chairman. Thank you.
    Senator Shaheen?
    Senator Shaheen. Thank you.
    Thank you both very much for being here and for your 
testimony.
    I think it is very clear that part of Russia's strategy is 
not just what they are doing in terms of military buildup and 
interference in Eastern Europe, but also their effort to 
undermine our democratic processes as they did in the United 
States. It is very clear that they interfered in our election.
    So what other steps can we take to address that kind of 
interference? In your view, are the sanctions helpful? Should 
we ratchet those up? Are there other actions that we should 
take? And should we be working with Europe as we look at 
Russia's attempts to interfere in the French and German 
elections?
    And also, I want to ask you separately about the Balkans, 
but maybe I can ask you to start with that.
    Ms. Smith. Well, thank you, Senator.
    I do think that Congress should reimpose the sanctions 
legislatively. I think we should certainly maintain what 
already exists, but go above and beyond it, working with our 
European allies.
    But first and foremost, we really need to establish the 
facts of what exactly transpired last fall. We need a much more 
public discussion of this. A lot of it remains classified. Our 
public deserves to know. Our allies need to know, as they 
prepare for these elections.
    As was noted earlier, there will be several elections in 
Europe next year. The signals we are getting from those allies 
is that they are already seeing a spike in Russian cyber 
activity.
    So first and foremost, we need to establish what happened 
last fall, and do our very best to determine from that set of 
facts how we will then prevent and deter attacks in the future, 
both on our system and on the system of our European allies.
    Senator Shaheen. General Breedlove?
    General Breedlove. Senator, thank you.
    And if I might, it is not going to sound very military, but 
part of what happens here is Russia puts out a lot of 
disinformation that they really do not care whether learned 
people see as being false. They are appealing to groups of 
people who want to believe them in the first place, in many of 
these countries.
    And what I have not seen among the Western nations who are 
under this attack is a strong unified voice of indignation, 
outrage, and to bring force to this. We see partial penny-
packet responses that do not come strongly either in a policy 
sense or in just a public message sense.
    And I think that the West, who is under attack here, needs 
to bring this together to out the behavior and then try to 
erode that base of people that want to believe them.
    Senator Shaheen. I could not agree more with both of you. 
And I think it is very sad and disappointing that this Congress 
has not acted more forcefully to make public in a much broader 
sense what we know about what happened and to take action to 
address it.
    So I appreciate that Chairman Corker and Ranking Member 
Cardin have talked about the importance of an investigation, 
but an investigation that goes on for the next 2 years is not 
an investigation at all. It is an effort to obstruct what 
happened.
    And sadly, what we are seeing from the White House is 
support for that kind of obstruction. So I hope we will take 
action and do it in a way that is very forceful.
    With respect to the Balkans, we are also seeing Russian 
interference in the Balkans in a situation where we have 
countries that are not as established in terms of their 
democratic processes.
    So can you talk about whether we should be looking 
separately at what is going on there, and is there particular 
support you think we should be giving to some of our friends in 
the Balkans?
    Ms. Smith. Well, Senator, you are right--thank you--to 
point the vulnerabilities that one finds in this corner of 
Europe. These are, in many ways, embryonic democratic systems 
that do have vulnerabilities like our own system. And we have 
already seen some very blatant attempts on the part of the 
Russians to undermine the political processes.
    I believe it was Senator Cardin that mentioned earlier the 
specific case of Montenegro. There have been just blatant 
attempts to overthrow governments in this part of Europe.
    And I agree with General Breedlove. Our strongest asset 
right now is transatlantic resolve and unity in calling this 
out. And frankly, we do not have that right now.
    And until we get that, we will not be able to come at 
Russia from a position of strength, with common transatlantic 
positions and tools, and support those young, frail democracies 
in places like the Balkans.
    Senator Shaheen. Thank you.
    General Breedlove?
    General Breedlove. Again, I join those remarks.
    I think that we have made a huge investment in this part of 
the world, and some of the things that we value the most in 
democratic institutions have a real chance. We should not now 
wither from the task.
    And, again, I think there is a lack of a strong, broad 
European voice, because there are some nations that are backing 
away from it a little bit in order not to provoke Russia and 
others. And I think we need a strong, unified Western and 
European voice to put this right in the Balkans.
    Senator Shaheen. Thank you both.
    The Chairman. If I could, just for the record, I feel the 
same way you do about making sure we do this quickly. I do not 
think you intended to say that Ben and I are stonewalling an 
investigation.
    Senator Shaheen. No, no. What I intended to say was that I 
appreciate the fact that you all have come out in support of 
doing an investigation.
    The Chairman. Good. And actually, trying to coordinate, 
although it has been very difficult, with other committees that 
have jurisdiction to make sure that this does not take a long 
time, that it happens in a very speedy way, and goes from the 
beginning to the end.
    I knew you did not intend that. I just wanted to make sure 
the record indicated that.
    Senator Cardin. And, Mr. Chairman, can I point out that, 
under your leadership, the chairmen and ranking members of the 
relevant committees are meeting in order to share information 
about what every committee is doing, and I thank you for 
coordinating the work.
    Senator Shaheen. But if I could, Mr. Chairman, just to try 
to be more clear, I do think there are principles and people 
within the Congress who would like to see an investigation drag 
on to the point that the public forgets about it.
    The Chairman. Yes. That is very possible. Very possible.
    Senator Young?
    Senator Young. Thank you, Chairman.
    I thank our panelists for being here today.
    General Breedlove, based on your years of experience, your 
observation that, in the wake of the Cold War, we drew down our 
military forces in Europe, seemingly under the assumption that 
Russia posed less of a threat. And understandably, I think, at 
the time, many harbored that assumption.
    Times have changed, which is why we are holding this 
opportunity about the challenges ahead and implicitly the 
opportunities.
    You argue in your prepared statement that the U.S. should 
adopt a position of forward defense in dealing with the 
Kremlin. And there are many challenges to NATO and the broader 
rules-based world order.
    Specifically, in terms of our military posture, what do you 
recommend? Where should new forces be placed? What should the 
composition of those forces be?
    If you would kindly give us your summary view of that 
issue, please.
    General Breedlove. Thank you for the opportunity, Senator. 
I do believe in an increased forward defense.
    And not to give a history lesson, but we started in Wales 
making a change to NATO, in making a change in U.S. support to 
NATO. In Wales, we said this is not the end. We are going to 
have to look at more.
    That was to assure allies in Warsaw. And before Warsaw, we 
adopted a change whereby we said we now need to move to more of 
a deterrent posture, and what does deterrence mean. And I said, 
leading into that summit, that it is the road through Warsaw, 
not the road to Warsaw.
    In other words, we would probably have to relook, even 
after the changes we have made in Warsaw, which you see 
happening today, the battalion arrivals in the Baltic nations, 
the brigade arrivals in Poland and others.
    I do believe it is a road through Warsaw. We are not where 
we need to be. I would give you a broad recipe.
    First of all, we are looking at pre-positioning of 
materials. I believe our NATO allies need to come alongside of 
us, and they look at pre-positioning of materials forward. 
Being able to rapidly join forces to materials rather than 
having to move the weaponry and materials to Europe gives us a 
quicker response.
    So I do believe we need to look at more rotational force, 
more forward-based, pre-positioned materials in order to 
rapidly fall in on those.
    And I think that we should encourage our allies to come 
more forcefully alongside of us in both respects.
    Senator Young. Do you regard the military rotation as 
sufficient into and out of the Balkans? I note that the border 
between, on one hand Russia and Belarus, and the other hand our 
Balkan countries, Estonia, Latvia, Lithuania, is roughly the 
same length as the border that we had between West Germany and 
the Warsaw Pact, much greater military presence at that time.
    Should we be looking at that as a benchmark? Or do you feel 
like the military rotation is sufficient for the times?
    General Breedlove. Sir, I have been fairly vocal in the 
past that----
    Senator Young. I meant to say Baltic, as opposed to Balkan.
    General Breedlove. Yes, sir.
    Senator Young. Thanks.
    General Breedlove. I have been fairly straightforward in 
the past that I believe the real and perfect solution would be 
increased permanent forward forces. But I do not think that is 
a realistic opportunity in today's setting.
    I do not mean to be too forward here, but I am not sure 
that any of you would sign up to moving forces out of your 
States permanently to Europe. And so I, as a realist, looked at 
how we should look at rotational forces and forward pre-
positioned materials as a lesser but acceptable solution.
    Senator Young. So why should a rank and file Hoosier, I 
consider myself one, why should they care about Europe? And how 
might I defend to them the benefits to the United States of 
having troops in Europe?
    General Breedlove. So I think my colleague might have some 
really good words here, too.
    I would put it very straightforward. Two of the most 
destructive wars in the history of this world have been fought 
in Europe, and thousands and thousands of American soldiers, 
sailors, airmen, and marines are buried there as a testament to 
what it cost us.
    We are inextricably linked to our European allies, and the 
commerce between us still is almost half of that in the world.
    We are not going to be separated from Europe, and what we 
do not need is to be complacent and slip into another very 
costly conflict there.
    Senator Young. Thank you.
    And, Ms. Smith, thank you for your presence here today. You 
provided some excellent written testimony with respect to 
Europe's energy dependence on the Russians. And I know you will 
have some thoughts on things we might do or not do to help our 
European allies address their challenges on that front. So I 
will be submitting some written questions to you.
    Thank you.
    The Chairman. Thank you. And I really appreciate you 
joining our committee. Thank you.
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    And great testimony, to the witnesses.
    I just add my voice to those who have said Congress has to 
get to the bottom of this investigation of Russia and the 
effect on the 2016 elections. No ally will believe we will help 
them if we do not show that we are interested in protecting 
ourselves. If we are unwilling to protect ourselves, we lose 
credibility with everybody on the theory that we can be of 
assistance and a supporter to them, whether it is about free 
elections or anything.
    This was an attack on the United States. And if we treat it 
in a lackadaisical manner, we lose credibility as a partner 
with anyone in the world.
    I am deeply worried that the President and some members of 
the administration want this to go away, and that is going to 
create challenges. But it is a test of this branch, and the 
Article I branch is Article I for a reason, as to whether we 
show resolve and get to the bottom of it.
    So I echo my colleagues who have made that comment.
    So many things to ask about. I am going to just ask about 
one, the Russia-Iran relationship. We are in an Armed Services 
Committee hearing, too, that I came from, and the witness this 
morning was General Nicholson, who was talking about the 
current posture of the U.S. effort in the NATO effort in 
Afghanistan. And here was something he said in his testimony: 
``Russia has become more assertive over the past year in 
Afghanistan, overtly lending legitimacy to the Taliban to 
undermine NATO efforts and bolster belligerence using the false 
narrative that only the Taliban are fighting ISIL. Similarly, 
neighboring Iran is providing support to the Taliban while also 
engaging the Afghan Government over issues of water rights, 
trade, and security.''
    General Nicholson talked--but he did not say they were 
collaborating together, but he said both Iran and Russia were 
supporting the Taliban in their efforts to destabilize the 
Government of Afghanistan.
    President Trump made a comment a couple of weeks ago that 
suggested that he thought he could work with Russia even to 
check Iran, but the Kremlin immediately came out and said, no, 
that is not the case. Iran is an ally and friend.
    Talk a little bit about the Russia posture, vis-a-vis Iran 
right now, whether that is just an alliance of convenience on a 
couple of issues or whether this is something that we are going 
to have to deal with more long term, as we think through these 
issues.
    Ms. Smith. Thank you, Senator.
    Just 10 seconds: I forgot to mention the importance of 
getting Montenegro into the NATO alliance, and I really want to 
get that out there, and the importance of ratifying to move 
forward.
    And then, just quickly, 20 seconds on what you say to your 
average American. I am from the State of Michigan. What I say 
to my friends and family in Michigan is, when there is a 
crisis, the first people you are going to call for help are in 
Europe, whether it is Ebola, the rise of ISIL, or Russia 
invading Ukraine. And you are not going to call anybody else. 
And that is just the bottom line. They are the best allies we 
have.
    On Iran, it is funny, when we talk about Russia in the 
Middle East, we get really consumed with what Russia is doing 
in Syria, and that is really the focus of so much of the work 
in this town, from the think-tank community, what the 
government focuses on.
    But the reality is that Russia is actually working to 
undermine a series of relationships that the U.S. has 
throughout the Middle East. We should note not only the linkage 
between Russia and Iran--and I too am incredibly skeptical that 
we would pull Russia over to our side and that they would 
abandon this relationship with Iran, that they would abandon 
their relationship with China, which I think has also been put 
out there as an idea. I think we are completely misrepresenting 
Russia's interest in these relationships.
    But again, back to the point I was just making, we should 
note that Russia is enhancing its relationships with Turkey, 
with Egypt, with Israel, with the Saudis. We need to step back 
and take a look at this and figure out what it is doing in the 
wider region.
    What Russia is doing in the Middle East is not just about 
Syria, and we need to be on alert and tracking this and 
understand how it is undermining our relationship with a NATO 
ally in this region.
    So thank you for bringing this up. I think I am interested 
in what General Breedlove has to say, but I personally am 
extremely skeptical that we are going to pursue the Russians to 
suddenly align with us, particularly given the relationship 
they are working together in Syria. How would we peel them away 
from each other?
    I just find that--to me, it seems very unimaginable.
    But please, General?
    General Breedlove. In opening remarks, the chairman and the 
ranking talked about the episode where Iran had provided basing 
for Russian military efforts. Again, I am completely aligned 
with my colleague's remarks.
    And all I would add is that there seems to be now a lot of 
instances where Russia and Iran are finding that their 
interests align, and they are becoming more and more 
cooperative. And that is a troubling thing, in a military 
sense.
    Senator Kaine. Thank you, Mr. Chairman.
    The Chairman. Thank you. Thank you very much.
    Senator Isakson?
    Senator Isakson. Mr. Chairman, at the previous hearing we 
had, you made a profound statement, which I have repeated in 
front of you a couple of times and that was Syria was a war of 
proxies--plural, proxies, a lot of them--which I thought was 
very true, which makes that war very difficult to deal with, in 
terms of our relationships.
    You made a comment today that we had a Republican and a 
Democratic witness. I think a majority and minority witness. I 
have listened to the testimony. I cannot tell which one is 
which. Can you tell me which one is which?
    The Chairman. General Breedlove is the Republican. Ms. 
Smith is a Democrat. And yet, as this committee is on most 
issues, they are very aligned.
    Senator Isakson. Which brings me to the point I want to 
make for a second, because I was sitting here trying to figure 
out which was which. I was favoring General Breedlove, because 
he is a Sam Nunn professor and Sam Nunn is one of my dear 
friends and a great American Senator who led this country in 
many ways through the Cold War, 24 years of service.
    But my suggestion to think about is this. Being old enough 
to have been in college during the Cuban Missile Crisis, I 
remember when John Kennedy put pictures of the missile silos 
and the missiles on the back of the ships that were going to 
head to Cuba, and drew a line in the sand with Nikita 
Khrushchev, which was the most memorable moment in my early 
years of life, because it was a tense time. We all thought we 
were going to fight, because it was that big a threat.
    The absence of knowing exactly what the cyberthreat is, is 
the equivalent to that period of time, because if we had a 
picture of cyber potential like we had a picture of those 
missiles, it would be pretty clear what we ought to do. I do 
not know what the cyberthreat really is. I am not a good 
technology guy. I do not what that is.
    But the quicker we know what the potential of that threat 
is and can paint that picture, the quicker we can have a more 
solidified approach toward dealing with Russia.
    And my closing point, not my closing out, but my closing 
point is, my two favorite Presidents were, one, John Kennedy, a 
Democrat, and the other was Ronald Reagan, a Republican, and 
for two principal reasons. Both were hawks, but both had the 
ability to stand up before the American people and argue a 
point that the American people might have disagreed with and 
win them over.
    Kennedy did it in the Cuban Missile Crisis, and Reagan did 
it with his speech in Berlin about the Berlin Wall. And in the 
end, communism fell after Reagan's speech, and Nikita 
Khrushchev backed up after Kennedy's speech.
    We are getting to a point in time in U.S.-Russian 
relationships in contemporary times where, if there is such 
evidence out there of the danger of the cyberattacks, it would 
be as dangerous of a collateral effect as the Cuban Missile 
Crisis was.
    We ought to be very clear in our policy. It ought to be 
bipartisan. And we ought to be direct with the Russian people 
and the Russian leadership.
    So I am not trying to make a speech. It just occurred to me 
those two times in history are very analogous.
    Let me ask both of you the $64,000 question. To the extent 
that you have the knowledge of it, what is the Russian 
capability of cyber use that you can tell us?
    General Breedlove. I will jump on the grenade first.
    I just remarked that I thought this was a very interesting 
analogy of the potential of cyber to the Cuban Missile Crisis. 
And I think in severity, it is exactly right.
    I would only offer one thing. We understood a little better 
how to address the Cuban Missile Crisis because it was a 
decisively military-feeling thing, and we had very decisive 
military responses.
    The cyber thing is even more scary to me because we have 
not really defined what is an attack. We have not really 
defined policies that say how we are going to respond.
    Now I will use the ``we'' of NATO. We still shirk from 
thinking about offensive cyber and only think of defensive 
cyber, when our opponent has taken the gloves off completely.
    And so I am a little more scared, Senator, about the cyber 
thing, because we really have not got a framework yet by which 
to address it.
    Ms. Smith. I would just add that General Breedlove and I 
were participating at a tabletop exercise yesterday, and there 
were different moves throughout the game, as there always are. 
And when you had any conventional military operation on the 
part of our adversaries, you would see participants looking at 
the order of battle. So what tools do I have in my toolkit, and 
how do I respond and move posture and move military assets to 
respond to the threat at hand?
    The minute the team had to deal with a potential cyber hack 
that had been inserted into the game, you could see people were 
flipping--there is no order of battle. We do not know what the 
toolkit looks like. We do not have a proper way to assess the 
threat, to figure out what tools we will use to deter it, to 
detect it.
    We are getting better. The United States is certainly far 
ahead of many other countries around the world. But we still 
are far too clumsy in our response and our ability to cope with 
this challenge.
    Senator Isakson. I would only add, Mr. Chairman, we proved 
ourselves as a Nation when we located the Cyber Command at Fort 
Gordon next to NSA in Georgia. When we compare cybersecurity in 
this country with NSA and put them side by side, there is a 
comparison there that we recognize that is important. And this 
is a real potential threat we need to try and be able to 
quantify and paint a picture of. So instead of talking about 
generalities, we are talking about specifics.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. I do not think anybody has brought 
greater clarity to that issue than you just did. And it not 
only matters to us but, let us face it, NATO has been wrestling 
with what an Article 5 attack is.
    So we do not need to just understand for our own good what 
a weaponized cyberattack means, but we need to help the world 
define it, because, very soon, it is likely that in parts of 
the world adjacent to Russia, it will be more weaponized. And 
we are going to have to make a decision as to whether we are 
coming to the aid of one of our allies.
    So a very, very important point. Thank you for making it.
    Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman. And I find this 
hearing incredibly important.
    I am concerned that it will take the Congress, particularly 
the Senate, to help lead on these issues with Russia, because 
there are times that we have led when administrations have not 
sought to be engaged or to be engaged in a way that we 
collectively have thought is necessary. Iran is a great example 
of that.
    And my concern with this administration on Russia is 
profound. I only hear you can impugn our allies of 
longstanding, but you treat with a soft velvet glove one of the 
most significant strategic challenges we have with Russia.
    You can actually say that there is a moral equivalency that 
we have killers here and that you think the United States is so 
good when you are speaking vis-a-vis Russia, who poisons its 
opposition, kills its opposition, invades another country, 
violates the international norm, goes ahead and 
indiscriminately bombs in Aleppo civilians, and somehow you can 
even fashion a statement that there is some degree of 
equivalency?
    It is shocking. Shocking.
    And then to have a cyberattack against the United States to 
pursue the very fundamental elements of democracy in the 
world's greatest democracy and, therefore, send a message 
globally and not have a sense of urgency about an 
investigation? It is shocking to me.
    If this was a different time, I would hear a different 
chorus of voices. So I really do hope--I really do hope--and I 
am proud to see that some of our colleagues are moving in that 
direction, whether it be the legislation that Senator Cardin 
spoke to, to have a congressional review as to whether 
sanctions should be relieved on Russia if, in fact, they have 
not met their obligations under international norms, or to 
further pursue sanctions, as I understand from listening in my 
office in between meetings some of the commentary and testimony 
that has been taken here.
    I really am concerned. And so I think this is incredibly 
important for us to continue to take a role.
    And I personally have never necessarily waited for an 
administration to give me the green light, because, at the end 
of the day, it is what we collectively think is important. And 
sometimes the Senate leads in these regards, and we get others 
to realize it is the right policy.
    Let me ask you some specific questions.
    General Breedlove, I know you had a conversation with 
Senator Portman. I just want to get these two statements on the 
record.
    We all aspire for NATO to meet its obligations of two 
percent across-the-board, without equivocation. But as we seek 
to make that happen, the absence of any given country not 
having 2 percent should never undermine the very essence of the 
importance of NATO to us. Is that a fair statement?
    General Breedlove. Senator, if I could answer that 
question, but finish what I was going to say----
    Senator Menendez. I have a minute and 30 seconds, so I will 
give you 20 seconds.
    General Breedlove. Two percent is incredibly important. Of 
that 2 percent as important to me is the 20 percent investment 
in recapitalization of equipment. If all 2 percent are spent on 
just personnel, it is that not relevant to me.
    Senator Menendez. But it is important to us as a force 
multiplier and the hosting of bases----
    General Breedlove. Absolutely.
    Senator Menendez.--among other things, in our own national 
interest and security. Is that a fair statement?
    General Breedlove. That is correct. And what I would also--
--
    Senator Menendez. And let me ask you this. Would it be 
wrong--I ask this of both of you--would it be wrong to remove 
sanctions on Russia unless Russia ultimately resolves what it 
has done in invading Crimea and Ukraine, and restores its 
obligations under the international order? Would it not be fair 
to say that that would send the wrong message globally?
    Ms. Smith. Absolutely, it would be wrong to trade sanctions 
for anything outside of Russia's actions in Ukraine. Those 
sanctions are there for a reason. They are not arbitrary. And 
they should only be lifted when we see a change in Russian 
policy inside Ukraine.
    Senator Menendez. Senator Breedlove? I mean, General 
Breedlove.
    Maybe you are going to run for the Senate. Might not be a 
bad thing.
    General Breedlove. I am not qualified for that, sir.
    I would just say that a conditionality, as you have 
described it, is absolutely key to me.
    Senator Menendez. I have other questions, but I will wait, 
if we get another round. Thank you, Mr. Chairman.
    The Chairman. I doubt very seriously, after being the 
Supreme Allied Commander, that he would want to be called 
Senator.
    So with that, Senator Johnson?
    Senator Johnson. Thank you, Mr. Chairman.
    I will just remind my colleagues that, in the last 
Congress, our European Subcommittee of this committee did hold 
a hearing on political assassinations in Russia. We held a 
hearing on the propaganda and misinformation campaigns of 
Russia. I do not recall those hearings being particularly well-
attended, so.
    When I found out, and we all found out--I mean, America was 
well-aware of the fact that Russia was hacking into emails and 
publicizing these things. I was not shocked. Their methods have 
been well-known.
    Cyber warfare, when it comes to political interference, is 
just a new tool.
    To define cyber warfare, by the way, there are some 
classifications. You have criminal theft. You have industrial 
espionage. You have political interference. And you have cyber 
warfare.
    And we also have seen that in Ukraine, the incredibly 
sophisticated cyberattack that shut down their utilities, their 
electrical grid.
    So we do see this, and that is really the line of questions 
I want to pursue with General Breedlove.
    Can you describe to me--paint that picture of what Russia 
is doing right now in eastern Ukraine? We are hearing reports 
of stepped up activity. I think reports are of about 30,000 
troops in Crimea. What is happening in eastern Ukraine right 
now?
    General Breedlove. Senator, I must disqualify a little bit. 
It has been 6 months since I have had the really good 
classified briefings.
    But as I follow this in the open press and others, nothing 
surprises me that I hear being reported.
    Continued pressure on the line of contact; that pressure 
does not happen unless it is supported from without.
    The use of very sophisticated, not only electronic warfare 
capabilities, but surveillance, UAVs, RPAs, whatever you want 
to call them; this support clearly comes from outside of the 
forces that are east of the line of contact.
    In the cyber piece, I think we do not know what we do not 
know. What we see is a sophisticated hybrid or, as I have 
described it, below-the-line set of warfare in Ukraine.
    If they can just delay Ukraine making the changes to their 
government that the Maidan required long enough, there could be 
another Maidan to oust this government that is trying to get it 
done. They need to break contact.
    Senator Johnson. What do we know that we can discuss in 
this setting, in terms of Russian troop levels in eastern 
Ukraine?
    General Breedlove. Sir, I am unqualified to answer that 
question right now.
    Senator Johnson. So when you were qualified----
    General Breedlove. Yes.
    Senator Johnson.--are we aware that there were----
    General Breedlove. Absolutely, there are today.
    Senator Johnson. In the thousands. Would you estimate in 
the thousands?
    General Breedlove. Sir, again, I am unqualified.
    Senator Johnson. Okay.
    The Chairman. If I could, at one time, tens of thousands; 
is that correct?
    General Breedlove. Yes, sir.
    Senator Johnson. Talk a little bit about what we have done 
in terms of training Ukrainian military to respond. And I want 
to know specifically, I mean how many troops should we pre-
position in whether it is the Baltics, in Poland? What should 
we provide specifically to Ukraine, so they can defend 
themselves?
    General Breedlove. So, Senator, our training has been 
centered on an area called Yavoriv. It is in the extreme 
western part Ukraine. I will be there next Tuesday again, by 
the way. And we have been training first what they call their 
national guard troops. It does not really translate like ours 
does. But we have finished a series of training in the national 
guard troops battalions, and we are now training some of what 
we would call active duty troops there.
    The Ukrainians are being very smart. They are bringing 
battle-hardened leaders off, marrying them with new recruits, 
putting them through our training with our U.S. Army forces 
there in Yavoriv. And we are turning out battalions and 
battalion leadership that are quite good.
    This should continue. That is one of the pieces that we 
recommended for Ukraine.
    Senator Johnson. Yes. I am just trying to lay out the 
reality.
    As in Georgia, Russia invaded. They set up shop. They 
continued to pressure. I mean, they have a fait accompli. 
Crimea, same way, 30,000 troops.
    Is that basically what they are establishing in eastern 
Ukraine?
    General Breedlove. Clearly, right now, they are 
establishing that in the eastern Ukraine. There are learned 
voices on both sides that would argue they want to stay or they 
do not want to stay.
    But clearly, at the moment, they have established that 
handhold in the Donbass, and there does not appear to be any 
movement to release it.
    Senator Johnson. The migrant flow from the Middle East into 
Europe is, on its face, destabilizing. What is the possibility, 
successful possibility, of actually setting up safe zones so 
that we can really stop the migrant flow out of Syria?
    I know it is a big question. Eleven seconds.
    General Breedlove. So, sir, the tough part about safe zones 
is they begin with a belligerent act. If you are going to set 
up a safe zone, you have to eliminate the enemy's defenses in 
that safe zone.
    If we set up a safe zone, and it falls under the coverage 
of Syrian air defense, we would have to eliminate the Syrian 
air defense. Our Nation would have to make a policy decision 
that it would take these actions in order to establish a safe 
zone. And that, I think, is a tough discussion.
    Senator Johnson. Thank you, Mr. Chairman.
    Thank you, General.
    The Chairman. I will use a portion of my time.
    Ms. Smith, I could not agree more with the comments that 
have been made, as far as getting to the bottom of what has 
happened. And I will say Ben and I both are probably very 
frustrated at the way this has begun.
    And it is great to find out what happened, obviously, and 
we need to deal with that. I guess I would ask the question, we 
knew it was happening, we have known it has been happening. 
Clear evidence showed it was happening strongly beginning last 
March.
    Why do you think we did not take actions when we could have 
blunted it?
    Ms. Smith. Well, I left the administration in 2013. I was 
not privy to the discussions that they were having in the last 
few months of the administration, when they started to get 
signals that this was underway.
    You know, we can all look at the public statements that the 
President made weeks and months later, talking about how it 
would be received by the American public, what kind of 
political frame we were operating in at the time, questions 
about the proper types of responses to Russia.
    So again, I would rather let the administration speak for 
itself. I was not part of that team making that decision. And I 
have what you have, and that is what the President has said 
publicly.
    The Chairman. General Breedlove, do you have any reason why 
we would not have immediately countered what was happening 
while it was happening?
    General Breedlove. I would also just say that, at the time, 
Senator, as you understand, my job was to provide my military 
advice, and I was doing that.
    What I heard in this capital, and what I heard in many of 
the other capitals, was a reticence to provoke Russia.
    The Chairman. Senator Murphy?
    Senator Murphy. Thank you, Mr. Chairman.
    For the record, I think this issue did rise to the level, 
to the principals. There was a conversation between President 
Obama and Putin on this subject. And reporting that I have read 
suggested that that had some effect, at least on decisions that 
might have been made regarding Election Day interference. But I 
think it is a good question that you are asking.
    And just add me to the chorus of worry that you are hearing 
from this committee, that there is not going to be a bipartisan 
investigation, that there is not going to be a bipartisan 
response with sanctions levied from this Congress.
    I take you at your word, and I am glad to hear Senator 
Cardin's comments that you are trying to push this process 
forward as quickly as possible.
    But we are five weeks into this new Congress. And pretty 
soon, we will be 10 weeks, and then we will be 15 weeks. And I 
do not really know how we can expect Europe to take a strong 
stand against Russian interference in U.S. elections if the 
message is so muddled coming out of the United States.
    President Trump spent weeks and weeks attacking the 
intelligence community for their report stating unequivocally 
that there was Russian interference in these elections. He 
later corrected himself, but we have the ability in a 
bipartisan way to set the record straight here, and then to 
take action.
    And so I am glad that you are pushing on your colleagues, 
but many of us do believe that this is just a slow walk--not by 
you, but perhaps by others--so that we never get to the facts.
    I want to ask just a couple questions, two questions, 
really.
    And the first is about what messages matter, because one of 
the things that worries us is that we are hearing conflicting 
messages from this administration about Russia.
    And so I will just put this to you, General Breedlove. 
There has been a lot of praise here for Ambassador Haley's 
remarks on Russia and Ukraine, and I share that praise.
    But 2 days after she made her remark, President Trump was 
asked about the Russian presence in eastern Ukraine, and his 
response was: ``We do not really know exactly what that is. 
They are pro forces. We do not know. Are they uncontrollable? 
Are they controlled? That happens also. We are going to find 
out. I would be surprised, but we will see.''
    I do not really know what that means, but it was widely 
reported that he was casting doubts at the highest levels of 
the American Government on whether there were Russian control 
and command, or Russian involvement in the forces in eastern 
Ukraine.
    So I guess my question is this. Who are the Russians 
listening to? Right? Are they listening to Nikki Haley? Or are 
they listening to President Trump?
    General Breedlove. I was giving my colleague a chance to 
jump into that one. Senator, levity was not intended. It is 
just I was giving a moment there.
    Ms. Smith. I am happy to wait.
    General Breedlove. Sir, if you would allow, there are two 
messages that matter to me, and they are completely 
disconnected from any of the current political conversations. 
They are two messages I have been delivering for a long time.
    The first message, as it relates to Russia, is the 
solidarity of the NATO alliance. What they fear most is an 
indivisible NATO. What Mr. Putin tries to do every day is find 
ways to find cracks in NATO, to divide it and, therefore, 
render it neutral.
    And so the first and foremost and most important message I 
ever saw, and I watched the Wales summit come to it early, is 
the absolute solidarity of our alliance and commitment to 
Article 5.
    Senator Murphy. But I guess my point is, is that not 
evidence of a pretty significant crack, when the President of 
the United States casts doubt on whether the Russians are 
controlling or involved in forces in eastern Ukraine?
    Ms. Smith. It is. Yes, it is. It is worrisome to our 
allies, because they are not exactly sure which narrative is 
the right one. They are hearing conflicting messages when it 
comes to the EU, NATO, and Russia repeatedly among Cabinet 
members of this administration and the President.
    And what they are waiting for is some clarity on which view 
will prevail. Will what we heard from Ambassador Nikki Haley 
recently about Ukraine and Russia hold to be true? Or will we, 
in fact, see an administration and a President moving toward a 
grand bargain?
    This is of deep concern to our European allies. I meet, 
like you, regularly with delegations, with Ambassadors coming 
through from Europe. They do not like what they are hearing 
right now coming from our President, in terms of an 
unwillingness to call out the Russians for what they have done 
and what they are doing, and an unwillingness, it appears, to 
stand with the EU during this very turbulent and difficult 
time.
    General Breedlove. May I jump on the second part?
    Senator Murphy. Yes. Sure.
    General Breedlove. As it relates to Ukraine, I think that 
the most important message is that everything that has happened 
there is completely illegitimate and outside the boundaries of 
the norms we expect by nations in Europe.
    Russia has put force back on the table to change 
internationally recognized borders in the European land mass, 
and I think that is unacceptable. And I think those messages do 
not change based on any of it.
    Senator Murphy. I just bring it back to the chairman's 
point. To the extent there are mixed messages, it is more 
important than ever that messages coming from Congress and this 
committee are as clear and as bipartisan as possible.
    The Chairman. And in spite of the unfortunate statements 
that end up being made, I think there are folks within the 
administration that have a very, very different point of view. 
And I think us working with them to empower them to create 
policies that we would support is something that we can play a 
role in doing.
    With that, Senator Gardner?
    Senator Gardner. Thank you, Mr. Chairman.
    Thank you to our witnesses today for this hearing. It is a 
very timely hearing, important hearing.
    Today, I sent a letter to President Trump, with a number of 
colleagues in this committee--Senators Young, Portman, and 
others on the Defense Committee and the Intel Committee--to 
suggest a sensible policy path for the administration to take 
with regard to our relationship with Russia.
    As the letter states--and I would ask it to be submitted 
for the record. I have it right here.
    As the letter states, the administration should pursue, and 
I quote, ``a results-oriented, but tough-minded and principled 
policy toward the Russian Federation,'' a policy where we 
should seek common ground with Russia in the areas of mutual 
interest but never at the expense of our fundamental interests 
of defending our allies and promoting our values. We have to 
relay our values and be clear to Russia that values like human 
rights are simply nonnegotiable.
    In addition, yesterday, I introduced a bipartisan 
resolution with Senator Blumenthal and Senator Rubio to express 
our unequivocal support for the North Atlantic Treaty 
Organization, NATO, which is indisputably the greatest military 
alliance in modern history. The solidarity that you talked 
about we must maintain and stress. It remains the key to global 
peace and security.
    That resolution also notes that NATO states must fully meet 
all of their financial obligations. You talked about it, and I 
want to ask a question about making sure that our allies are 
more forcefully alongside us in our efforts. And I know U.S. 
taxpayers appreciate the bipartisan message to our allies.
    Last month, the 4th Infantry Division troops from Fort 
Carson in Colorado were deployed to the European theater to 
defend our NATO allies. And last year, I had the opportunity to 
visit with you in NATO headquarters, along with other Fort 
Carson soldiers stationed in Europe.
    So, General Breedlove, it is certainly great to see you 
again. I had a great visit with you.
    We talked about several things, including muscle memory in 
Europe, the fact that the European Reassurance Initiative, 
stationing our soldiers in Europe, helps us bring back muscle 
memory of what it means to be in Europe in the face of Russian 
aggression.
    So I guess two questions. Could you talk a little bit about 
that muscle memory? How are we? Are we gaining, regaining that 
muscle memory? And number two, on February 3rd last year, the 
RAND Corporation released a study that claimed Russia forces 
could overturn the three Baltic states of Estonia, Latvia, and 
Lithuania in about 60 hours. As a result of that regain of 
muscle memory, have we turned back the clock?
    General Breedlove. Senator, thank you. Past the 2, and the 
2 percent.
    The other intangible we do not talk about, and some of our 
allies do wonderfully at, is give us exquisite access to their 
bases and capabilities. It is an intangible that is hard to 
measure, but I think it needs to be also a part of our 
conversation.
    The muscle memory in Europe that we talked about, there are 
a lot of skillsets that we lost across the last 2 decades as 
our military has gone away from large-scale operations and 
moved toward counterinsurgency or, as I call it, COIN. The 
size, scope, and speed of those two problems is very different.
    And so we are beginning to fight now to regain that, the 
Trident Juncture exercise recently in the past, trying to gain 
scale and the skills to meet that scale.
    There are a lot of problems yet. A couple of those 
classified that I would love to talk to you about another time.
    But the bottom line is, how long does it take, 20 years of 
losing muscles? It may take a lot longer than a year to regain 
that 20 years.
    And so we are on our way. The attitude and the approach is 
correct. We just need to keep moving forward.
    The RAND study, I get asked about this almost every time I 
am in front of a group. Dave Ochmanek is a great friend and a 
wonderful human being and incredibly brilliant. And I do not 
question what he came to, but every study is based on what are 
the assumptions upfront.
    If our Nation and if NATO can take policy decisions at 
speed and get in front of a problem, it changes the answer that 
Dave came to. If we cannot make decisions at speed, we will 
face the problems that Dave came up to in his studies.
    Senator Gardner. So under that analysis that RAND did, 
assuming you keep the same assumptions that they made, would it 
still be 60 hours or would it be greater?
    General Breedlove. Sir, I was not a part of the exercise, 
so I am not really qualified to judge that.
    Senator Gardner. Going back to Ms. Smith, a little bit of 
the questions on cyber, I guess head of Air Force cyber 
warfare, General Bender, was in Colorado Springs--Colorado 
Springs, Colorado, obviously--at a cyber summit. And he was 
talking about putting out fires in the realm of cyber, but 
putting out fires all the time makes it difficult, and I think 
this is a quote: ``It makes it hard to make sufficient changes 
to meet the challenge overall of our threat in cyber and 
drawing out a better cyber policy.''
    So what do we need to be doing, in terms of moving beyond 
just the legacy computing challenges that any service or 
governmental agency faces, moving into a more strategic plan 
with cyber, and actually having a developed plan that we talked 
about that lays out what happens the next time Russia attempts 
to influence elections?
    Ms. Smith. Yes, and I would just note that it is a very 
good question, Senator. I would just note that Russia is not 
just using its cyber tools to interfere in the political 
processes of our allies, but they are also taking down whole 
systems.
    I mean, Estonia in 2007 experienced half of their capital 
just going down. I mean, they targeted banks and government 
institutions just across-the-board. And they have done it in 
countless other places.
    So I think we have to really bring the NATO alliance into 
the 21st century. NATO has tried to move ahead, vis-a-vis 
cyber. But to be frank, I think a lot of the work to date has 
focused on securing the systems, the operating systems, and not 
really having a broader discussion, which is difficult for some 
allies because, frankly, there is a huge disparity between what 
some allies have and what others lack.
    And it is difficult for us collectively to have this 
conversation. But we do need to get to the bottom of it, and 
that is what was raised earlier. Does a cyberattack justify an 
Article 5-like response?
    The NATO Secretary General right now says yes. Frankly, I 
am not sure all allies are onboard with that. Assuming we get 
consensus on that, the next question is, what are the array of 
tools offensively and defensively that we can use to apply to 
that?
    But right now, Russia is operating under the assumption 
that NATO will not respond because it is not comfortable in 
this space, and that we no longer or we still lack an agreement 
on what the response could look like.
    Could we message to the Russians what the response would 
be? Absolutely. We could cite what an array of responses could 
look like even from an asymmetric perspective, to let them know 
that just because they come at us through the cyber lens does 
not mean we have to respond that way either, and that we will 
look at an array of tools.
    But we have not messaged that to Moscow, to date. And this 
is really a task for the alliance going forward.
    Yes, we have to focus on defense budgets. It is absolutely 
important. It is something I have dedicated the last 2decades 
of my life to. But at the same time, in addition to defense 
budgets, we really have to look at these new challenges and 
getting NATO ready for kind of the 21st century-like challenges 
that we face.
    The Chairman. Before turning to Senator Markey, General 
Breedlove, if we had a Secretary of State that we felt was 
truly committed to walking back Russia's involvement, as we 
look at legislation, what are the things we need to take into 
account? I mean, you can freeze sanctions in place. That is 
certainly something we are all going to be looking at.
    But what else do we need to be taking into account, 
assuming we felt that we had a Secretary of State that had the 
relationship but also the strong desire to walk back Russia's 
destabilizing efforts?
    General Breedlove. Senator, a little tough for a military 
person to address but I have talked about it before, and that 
is we in the military use a very simple way of describing a 
nation's power. We use the American coin, the dime, D-I-M-E, 
diplomatic, informational, military, and economic.
    And I think that as we have approached Russia in the recent 
past, we have most of our pressure in the economic sphere, and 
we have not really used some of the tools we might have in the 
D or diplomatic, I or informational. In fact, I really do not 
think we have taken the field in the information battle.
    And we need to explore more in the military. And, as you 
know, I recommended defensive----
    The Chairman. Absolutely.
    General Breedlove.--or lethal weapons for Ukraine.
    So I believe that there are other tools that we could use. 
And frankly, I am not averse to some positive aspects of 
working with them. But we need to do that, again, based on 
conditionality of good behavior.
    The Chairman. Senator Markey?
    Senator Markey. Thank you, Mr. Chairman.
    The new administration has a responsibility to try to find 
a way of extending the New START treaty. And obviously, both 
countries have bloated nuclear arsenals. President Trump is 
saying he would not mind a nuclear arms race with Russia, that 
Saudi Arabia, South Korea, and Japan have nuclear weapons 
programs.
    It is a dangerous environment that could be created, if we 
just allow for that kind of rhetoric to continue.
    So my question to you, let me begin with you, Ms. Smith, 
would be, what is the best way that President Trump can move to 
pursue serious nuclear arms control negotiations with Russia 
while strengthening the NATO regime and resisting Russian 
aggression? How can we square that circle?
    Ms. Smith. Thank you for that, Senator.
    I would just open by saying the goal of limiting the 
modernization plans on both sides, to try and save money and 
stabilize the nuclear balance, is a laudable one. And it is a 
good idea that I think many of us would support.
    But I think we have to be very careful how we proceed. And 
I think the best way to proceed would be kind of the crawl, 
walk, run. And the crawl, walk, run approach starts with 
pushing Russia to clean up their act when it comes to the INF 
Treaty.
    So they are in violation of the INF Treaty. And I think 
before we have any conversations with them about something 
above and beyond New START, something that would take an 
entirely new shape, we have to focus on what they are in 
violation of today. So that is point number one.
    To the extent that we want to move forward with dialogue in 
this space--again, a laudable goal--we have to basically take 
the trust or distrust and verify approach. I mean, Putin has 
shown in many, many situations, whether it is Syria or all 
sorts of other environments where you are sitting down with him 
and he promises you the moon, and a day or two later, it is a 
very different story in terms of implementation. He has done 
this in Ukraine and Syria.
    Senator Markey. So if I may, so from your perspective then, 
should Trump meet first with NATO before he meets with Putin in 
order to be reassuring our allies that we are going to be 
backing them on the INF negotiations and that we are firmly 
behind that perspective to ensure that Putin understands that 
there is a united stance that exists on the enforcement, of the 
integrity, of the preexisting nuclear agreements?
    Would you say that would be a wiser approach for President 
Trump to take with NATO first?
    Ms. Smith. One hundred percent agreement, that is the right 
approach. Consult with Europe first, then move to a dialogue 
with Russia, and do not include sanctions as part of your 
opening move.
    Senator Markey. Do you agree with that?
    General Breedlove. Senator, I am sorry, it is kind of what 
I said in my opening remarks. I do believe that it is important 
for our new President to meet with our allies before he meets 
with Mr. Putin.
    And I would like to echo, I share your concerns about other 
nuclear discussions and things, but my focus as the SACEUR and 
the European Command commander was on the fact that Russia has 
abrogated the INF, and what does that mean to us tactically?
    Senator Markey. Okay. That is very important.
    Well, how can we bring Russia back into compliance with INF 
without further raising nuclear tensions in Europe? What is the 
best approach that you would recommend?
    General Breedlove. I think we should share this one. I will 
speak a little more militarily, and Julianne might speak in a 
policy manner.
    As far as the INF, the way that we got to the INF was 
confronting a situation where the Russians were presenting a 
tough and ugly problem. And so I do believe that, in order to 
get back to the INF, we may have to take some tough and more 
deliberate actions.
    I think we have an incredible team in the Pentagon now 
between our new Secretary and Joe Dunford. I have worked with 
both of these gentlemen and for them in my life.
    I think they will come with a framework for getting to 
this. But until that time, I still ascribe to the framework 
that Ash Carter put out there. And I think that that we just 
have not started down the path of what Ash Carter laid out. And 
so I very much ascribe to his deploy active defense, 
counterforce capabilities, and then countervailing strike 
capabilities, as a stepping stone to try to bring pressure on 
the INF.
    Senator Markey. Okay. So we have the military perspective. 
Can we get the policy perspective?
    Ms. Smith. I mean, I would absolutely agree with that. I 
mean, frankly, I have nothing to add. I think that is exactly 
the right approach. I support what Ash Carter put on the table. 
And I certainly, as noted earlier, support ensuring that we 
bring our European allies along in this process.
    Senator Markey. My fear is that, if we do not try to find a 
peaceful but aggressive way of responding, then we just play 
into the hands of the military complex in Russia and, to a 
certain extent, our own military complex here that just want to 
have a trillion dollars' worth of nuclear buildup. It is in 
their economic interests. It is in their own personal political 
interests, because that makes them more powerful within the 
society.
    So the more that we can use this negotiated resolution, the 
more we can avoid squandering, as we did in the 1980s, just so 
much more money than we had to because we were not willing to 
kind of get to the table and try to be reasonable but firm in 
reaching a result that would help us on all fronts.
    And then you can move on with Russia, which that was the 
key issue that then led to the fall of the Berlin Wall. You 
first had to resolve this nuclear conflict. And without that, 
all the other regional conflicts, all the proxy wars, all were 
just going to continue.
    So that was the central issue, and I think it still 
continues to be, to a very large extent. The more that we talk 
about this offensive, defensive technology deployment, that 
just plays into the hands of the most conservative elements in 
their country.
    So we thank you for your testimony.
    Thank you.
    The Chairman. Thank you.
    Senator Rubio, Ben and I have something we have to leave 
for at 12:25. I am going to defer asking any questions. I think 
Ben is too. There are some other folks that I think want a 
second round. And so, in order to accommodate that, we will go 
to 12:25.
    Senator Rubio?
    Senator Rubio. Thank you, Mr. Chairman.
    First of all, let me just say, General Breedlove, the 
Supreme Allied Commander has to be one of the greatest titles 
that I have ever seen in my life. You must have a very 
impressive LinkedIn account, as people go on there and look at 
it.
    The Chairman. A direct link to God, I am sure.
    Senator Rubio. That is a heck of a title. But anyway, we 
obviously appreciate your service.
    We thank you both for being here.
    I want to begin by asking you, I think one of the things 
that maybe is missing in our analysis of this, I think you both 
hinted at it in your opening statements, is how to view all of 
this. I do not think we understand enough in our debates about 
Russia how much this is about domestic politics within Russia 
itself.
    And so I wanted to share with you my view, which I think 
others share as well, and kind of get your sense of whether I 
am on the right track, so that we can then analyze any proposed 
grand bargain with Russia through the lens of that.
    The old deal that Putin seemed to have with his society was 
that he would create a system where people could make a lot of 
money, especially the elites, if he had total political 
control. And it seems like the new model now is that he is 
basically trying to generate popular support by creating this 
perception that he has restored Russia to great global power 
status on par with that of the United States, and, in that 
process, understanding the tools that he has available to do 
that.
    He cannot do that economically. They are the 12th largest 
economy in the world, so they are not insignificant. I think it 
would shock a lot of people to learn that the Russian GDP is 
equal to that of Italy. They also do not have tremendous soft 
power.
    And so, largely, what has given them influence in the world 
and allowed them to kind of position themselves the way he has 
internally, especially, is their willingness to use the assets 
they do have: conventional military capabilities, the nuclear 
threat, the use of cyber tools, and to use them in brutal ways 
often, certainly indiscriminately.
    And I think through the lens of that, through the lens of 
that goal is how you begin to understand Ukraine, where now 
they hold onto Crimea. There is all this talk about NATO, and 
assimilation with the West has vanished. You look at Syria 
where their engagement basically shifted the entire dynamic. 
They have now positioned themselves, in the eyes of the Russian 
people and many in the world, as a regional powerbroker which 
is, in fact, an alternative to the United States.
    I think that is how you view some of the actions that 
occurred in our elections, not to mention the opportunity to go 
back and say to the people in Russia the American republic is a 
fraud. It is a scam. It is corrupt. It is no more superior than 
anything else. It is all hypocritical.
    You see it often, of course, in the crackdown of what is 
happening internally in Russia where people who oppose Vladimir 
Putin wind up in jail; convicted, as we saw yesterday, on 
trumped-up charges; or poisoned in a hospital bed, in intensive 
care and dead.
    And, of course, the military buildup for a country that is 
suffering dramatically economically, they continue to expand 
their military capabilities while the rest of the economy--and 
I guess it leaves Vladimir Putin at this moment in a position--
and maybe this is an exaggeration. I do not think it is. I 
think he has more power amassed in his hands than we have ever 
seen in Moscow since the death of Stalin, in terms of the 
control that he has over that government and that society.
    And so that is why I view, and I want to have your opinion 
on this, both of you have talked about it, why I think this 
whole notion of a grand bargain where they are going to help us 
kill terrorists and fight ISIS in exchange for lifting 
sanctions is a fantasy.
    For starters, I think it is borderline immoral because it 
basically views the Ukraine situation as a bargaining chip to 
be used as part of a broader deal, in essence, an asset that we 
can give away in exchange for something broader, which I do not 
think the Ukrainians are going to go for to begin with, and I 
do not think there is support for it in Ukraine.
    But this talk about fighting against ISIS, that is what 
Putin says he is doing now. Obviously, why would we have to cut 
a deal to get him to do what he claims to already be doing?
    The other risk of that, of course, is the way that he 
claims to fight terrorists is by bombing civilian populations. 
So if we are in partnership with him fighting ISIS, and he 
kills a bunch of children and bombs a hospital in Aleppo, that 
is on us too, because we are in partnership with them. So 
imagine the impact that would have on us.
    And then what about the price we would have to pay? I 
think, and I just wrote some things I think he would insist on, 
he would want us to recognize a sphere of influence in the 
former soviet republics, obviously give up on everything that 
has to do with Ukraine, get NATO off his border, lift the 
sanctions.
    And I say all this--why is it a fantasy? Because I do not 
think there is any internal pressure in Russia on Vladimir 
Putin to cut a deal.
    First of all, you cannot pressure him because you die. And 
if you try to, there is no media. So we are going to try to cut 
a deal with a guy who thinks he is winning, has no internal 
pressure, and wants us to give up everything in exchange for 
him doing what he claims to be doing anyway.
    So maybe I am a little harsh, but I think that is a really 
stupid deal. What do you think?
    The Chairman. That is a yes or no answer.
    [Laughter.]
    Ms. Smith. Agreed. I mean, I could not have said it better 
myself. I mean, the grand bargain mythology is really getting a 
bit laughable at this point.
    I mean, let us be clear, you said, Senator, President Putin 
is claiming that he is combating ISIL. He says that. You are 
right. But I think you and I and everyone here, we know they 
are not combating ISIL. Eighty percent of the strikes that they 
are undertaking in Syria are in areas where the Islamic State 
is not even present. So let us not kid ourselves.
    And then think about the assets they bring to bear. So they 
would bring what? They would bring air? I mean, we do not need 
air in Syria or Iraq.
    So I truly appreciate what you are trying to say, and I 
agree with you 100 percent that the list of things that we 
could potentially give Russia is huge, top of the list is 
lifting sanctions. And the list of things that we get in return 
is really a big fat zero in many ways, in terms of how I look 
at it.
    And thank you for mentioning the situation at home. He is 
leading a declining power. It does not feel that way based on 
the investments that he has made in his military and the way he 
is acting. But he is at threat at some point of losing control 
of the situation. And I think because of that, he creates this 
constant narrative of Russia as victim. He is the only one 
upholding Russian values. It all borders on the ridiculous.
    But the situation at home is very important, and that is 
why I am so glad you raised it, to mention, to understand his 
calculus, and why he needs to be out in the world to then 
create this narrative at home that serves his interests in 
terms of staying in power.
    General Breedlove. Senator, again, I agree. Thank you for 
talking about how he is fashioning his view of Russia and 
Russia's view of him.
    I would just add one thought. I think also central to the 
way he does this is creating a common enemy. And demonizing the 
United States as a leader in the West, and how we do business, 
is clearly a part of that calculus that you walked through.
    I would say this in just a little different way, and I have 
been saying it for some time now. And that is, we currently 
have no trust in this relationship with Russia, as was 
described, and as many of you have described. There is no 
trust. You cannot surge trust. You have to earn it over time.
    If we are to begin to have agreements with Russia, I think 
we need to start in smaller, more meaningful ways where we can 
demonstrate that both sides are earnest in their approach and 
that our objective then can be viewed by the world, not argued 
by TASS versus CNN or whatever.
    And if we build trust over time, then we can find ourselves 
in a place where possibly we could have these conversations. 
But I do not think you go from zero to 120 miles an hour. We do 
this incrementally.
    The Chairman. We have had two Presidents in a row that 
began hoping to develop trust and were met with distrust, and I 
think we have learned a lot from that.
    The Chairman. Senator Udall?
    Senator Udall. Thank you very much, Mr. Chairman.
    And thank you to the witnesses. This has been a very 
engaging and I think wide-ranging session. I really appreciate 
your comments, both of you.
    And, Mr. Chairman, I also want to add me to the list. I 
have watched you and Senator Cardin talk about Russia and the 
hacking and the bipartisan effort that we are trying to pursue 
in this committee. I really believe this committee is the right 
place to do this. I mean, all of us have talked about this 
committee being an island in a way of bipartisanship in this 
Congress. And I think it needs to be a public process rather 
than just being over in Intelligence.
    And so I would just say it is getting really late, and we 
are losing valuable time, and I hope that we can put an urgency 
check on that. So thank you for that.
    Ms. Smith, you wrote in August of last year, and this is a 
quote from one of your articles, I think, ``The theory behind 
the economic sanctions was that they would eventually bring 
Putin in line. Forced to choose between Russia's economic 
future and international adventurism, the West assumed that at 
some point Putin would wisely choose the former.''
    Why did we think that Putin would bow to sanctions when he 
has support domestically for his narrative that the West is 
encircling Russia in a threat? And did we think Putin would 
gain domestically from a decision to give into sanctions 
pressure?
    Ms. Smith. I think we were under the belief at that time 
that the sanctions would issue a blow to a very weak economy 
and a situation where they are heavily dependent on their 
interaction with both Europe and the United States, in many 
ways more so Europe than the U.S.
    And if you look at all the indicators since we imposed 
sanctions, whether it is the value of the ruble or capital 
flight, or I mean you could look at growth, you can look at 
living standards, basically any indicator you take, you still 
see that, by every indicator, this is an economy that is in 
decline.
    We are right, though, to also say, despite that very real 
fact and the fact that it has been paired with a drop in oil 
prices, that has not stopped his aggression. And I am the first 
one to admit that. But that does not lead me to conclude that 
we should lift the sanctions or put that option on the table in 
exchange for, say, help in Syria.
    I do think, in the long run, he is increasingly feeling the 
pain of these sanctions. I think he genuinely wants to see if 
he can work with this administration, to see if those sanctions 
might be lifted. And he is taking very active measures in 
Europe to try and divide Europe from within to pull off some of 
the members that might have some hesitation about renewing 
these when they come up for renewal this summer.
    Senator Udall. And, General Breedlove, did you have 
anything on that?
    In the scenario you are talking about, in terms of Russia 
and the relationship in Syria, and what is going on there and 
increasing the pressure, do you think that, in the long term, 
he sees that this could be a real domestic terrorism problem in 
terms of Russia, the longer he is in Syria, the longer he is 
doing what he is doing in terms of the killing and the war 
effort, and asserting Russia in the entire Middle East as a 
major, major player on that international scene?
    Ms. Smith. I do not feel like I can answer that. I think he 
appreciates that the mission will have costs, over the long 
run. And a very active mission that would involve thousands of 
troops is not something that he wants to sustain over the long 
term. But I do not feel like I am the right person to answer 
the counterterrorism piece.
    Senator Udall. General Breedlove, you wrote in Foreign 
Affairs that Russia will continue to improve its military 
ability to offset the technological advantages currently 
enjoyed by NATO.
    What are the most alarming technologies being developed? 
And where does the Russian development of hypersonics fit among 
these potential threats?
    General Breedlove. So, Senator, I see that both in a low-
end context and in a high-end context. This is a learning and 
adaptive military. They made some pretty bad blunders when they 
went in to Georgia in 2008, and they took a shellacking in some 
places as they did that.
    They learned. And when they went into Crimea, they were 
better. They were much better. They learned in Crimea. And they 
got better when they went into the Donbass.
    In fact, now we see some very sophisticated linking of 
small forward UAVs to counterbattery and to artillery fire. In 
fact, it is pretty well known in the Ukrainian forces, you see 
or hear a certain kind of drone and within 2.5 to 4 minutes 
later, you are going to get Grad rockets and other things.
    So they have gotten much better at this low-end piece, at 
stitching together their capability to bring military might to 
the battlefield. Certainly, in the high end, we are not the 
only Nation in the world that is working toward fifth-
generation fighters, stealth technology, incredible jamming 
capabilities that we see in the fighters. It does not surprise 
that the front end of some of these fighters look an awful lot 
like the front end of our fighters, because the technology has 
been stolen.
    And so we see Russia making advances in the low-end 
technology and the high-end technology.
    Hypersonic, sir, I think that has to be a classified 
conversation that you might want to have with the Pentagon.
    Senator Udall. Good. Thank you very much. Thank you both.
    Thank you.
    The Chairman. Thank you.
    Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman, for the 
courtesy. I appreciate it.
    General Breedlove, a day or 2 ago, we met with several of 
the Baltic ambassadors to the United States, as well as Poland. 
And in the course of that conversation on many things, one 
thing that had struck me is they say that there is a Russian 
exercise coming up of 100,000 Russian troops in Belarus.
    Now, we can conduct exercises, I get that. But 100,000 
Russian troops in Belarus? So much so that I understand Belarus 
notified, I believe it is NATO, because of the size.
    If you were advising President Trump, what is an 
appropriate action response set of circumstances to make sure 
that a training exercise does not end up as anything more than 
a training exercise?
    General Breedlove. So, Senator, thank you. That is Zapad 
17, Zapad 13. And ``zapad'' means west in Russian, so what this 
is pointed at is very clear.
    The Zapad 17 is a bit alarming because Zapad 13 was who do 
you listen to? Ten thousand to 20,000 troops. Sir, I have heard 
200,000.
    What I do know is that the Russians have ordered 83 times--
not 83, but 83 times--the railcars that they ordered for Zapad 
13. And so the size of this exercise will be demonstratively 
bigger than Zapad 13.
    Nations have a right to exercise. Nations do not have a 
right, I think, to exercise irresponsibly on other borders and 
in configurations that represent offensive capability.
    Part of the problem I saw as a SACUER in these snap 
exercises that we see, in NATO, our exercises are scheduled, 
published. Size, duration, and objective is all published. The 
snap exercises we see in Russia I think are a tool that 
actually we may have used in the past of conditioning an enemy 
so that they do not really see what is happening.
    And we saw a lot of that conditioning going on in the 
western and southern military district before they went into 
Crimea and before they went into the Donbass.
    And so I think the problem with this exercise is size and 
scope directly on the border, a name that orients it west, and 
the fact that the unpredictability of it makes it very 
alarming.
    How do we respond? NATO has debated. Do we tit-for-tat? Do 
we remain calm? Do we do some portion of increasing alert and 
others? I am not a fan of tit-for-tat. I think we should drive 
our exercise based on what we need to learn and do.
    But I would be a supporter of what I would call responsible 
increases in alert and posture, should the unthinkable happen.
    Senator Menendez. Yes. I do not know what is unthinkable 
anymore, after Crimea and Ukraine. And that is why I worry 
about this exercise and its magnitude. Maybe a large delegation 
of members of the Senate in that part of the world at that time 
might be a good thing too.
    Let me ask you both--this is the final question, and it 
piggybacks a little bit on the question that Senator Rubio or 
the statement that he was raising.
    You know, I found a TIME Magazine article from December, 
which I also cited during Secretary Tillerson's confirmation 
hearing, to be rather illuminating, at least from the 
perspective of what it was saying. I would like to get both of 
your takes on it, about Russia's intentions with the new 
administration. And I am going to quote from the article. It 
says, ``What the Russians want from Tillerson, however, is 
bigger than sanctions relief. They want to see a whole new 
approach to American diplomacy, one that stops putting 
principles ahead of profits, focuses instead on getting the 
best political bargain available, and treats Russia as an equal 
on the global stage. `For the next four years, we can forget 
about America as the bearer of values,' said Vladimir Milov, a 
former Russian Energy Minister who went on to join the 
opposition. `America is going to play the deal game under 
Trump. And for Putin, that's a very comfortable environment,''' 
he told a radio show in Moscow.
    ``It is an environment,'' and this is where I worry, ``it 
is an environment where statesmen sit before a map of the world 
and haggle over the pieces available to them, much 
like...weighing the oil fields of Texas against Russia's 
reserves in the Arctic. Through the canny eyes of a political 
dealmaker, many of Washington's oldest commitments in Europe 
and the Middle East could come to be seen in much the same way, 
as a stack of bargaining chips to be traded rather than 
principles to be upheld.''
    What do you think? Do you think that is an insightful view 
of what Russia wants, expects, and hopes for? And should we be 
looking at--it is one thing to be realpolitik and being 
pragmatic. The other thing is negotiating away the very essence 
of our principles and negotiating other countries' territories. 
If you are not at the table, that is not a particularly good 
deal for you.
    Can you give me insights as to your perspectives on it?
    Ms. Smith. Yes. Thank you, Senator.
    I agree with the piece. I think he has multiple goals, 
Putin, in undermining the democratic institutions that served 
as the bedrock of the transatlantic relationship for 70 years. 
He would love nothing more than to call into question our 
commitment to each other, the values that we share, we work to 
protect and promote, which is his biggest worry.
    His biggest fear has always been that the West would 
somehow fuel some sort of color revolution inside Russia. And 
he called out Secretary Clinton, who was the Secretary of State 
at that time, for doing exactly that, for planting the seeds of 
the protests that erupted after he was elected again in 2012. 
And so he has been very anxious about everything that the West 
stands for.
    And so, yes, he wants to undermine our values, our 
institutions, our unity and resolve. And I think we have to 
work now and quickly to ensure that he does not do that.
    General Breedlove. Senator, if I could, not to be contrary 
to the piece or any others, I would just offer that, in my 
mind, Russia's intentions have not changed. It does not matter 
which--from several administrations to now, their intentions 
really have not changed.
    Maybe the tools might change based on the approach of the 
leadership in the West. But to question the West, and certainly 
question the U.S. leadership of the West, to establish Russia 
as a world power, and certainly as the director of operations 
in their region, all these things I do not think have changed, 
just the tools might have changed.
    Senator Menendez. Thank you.
    The Chairman. I know Senator Murphy had--I will just say 
one thing. The committee wished to push back really strongly on 
the Syrian issue when chemical weapons were used. And then we 
tried to empower, 4 years ago, the administration to do more. I 
mean, in many ways, we have sort of fed the beast by not 
pushing back in ways that I think Congress wished our 
administration to push back. And I think you are going to see 
legislation fairly soon to try to deal with this.
    And obviously, sanctions are one element. But I would just 
ask you both, before turning to Senator Murphy, that you are 
going to have some questions. We hope that you will answer 
those. They will come in by the close of business Monday. But 
it seems to me that we are at a point where there is a much 
broader effort that needs to take place against Russia. It is 
not just about keeping sanctions that are in place from being 
lifted but something far broader than that.
    And I would just ask that you send back to us a paper, if 
you would take time to do so, to talk about those other things 
that you think would be important relative to us doing so.

    [The information was not available at the time of print]

    The Chairman. Senator Murphy?
    Senator Murphy. Thank you, Mr. Chairman.
    Just one final question, to let you put a finer point on I 
think a point you have been making throughout this hearing.
    I have been a big supporter of the European Reassurance 
Initiative, but I do think it is curious that we have largely 
viewed European reassurance purely through a military lens. And 
you sort of made this comment a couple of times over, but I 
just wanted to let you close the loop on it.
    I just think it is an interesting question as to whether 
$3.4 billion is best spent simply on military reassurance or 
whether there are other ways that you can spend pretty big 
amounts of money in order to gain longer term security in the 
region. Let us just pretend that you spent $3.4 billion on 
helping countries on Russia's periphery become permanently 
energy independent, right?
    I just wanted to allow you to square the circle a little 
bit and talk to us about maybe how we should look at European 
reassurance in the future and if there are other things beyond 
just the military support that might get us a little bit more 
of a long-term benefit?
    General Breedlove. So, Mr. Chairman, I see these as 
related, and I would be happy to respond to your request for 
those thoughts. I talked a little earlier about this war 
college model that we use of DIME. There is a much broader set 
of tools, which I think could be brought to bear.
    Senator, I must say, though, that having served in Europe 
as a captain in the very early 1980s, and knowing at that time 
that there were two corps, seven-plus divisions, multiples 
brigades, ten fighter wings, et cetera, et cetera, in Europe to 
handle a problem back then, and now we look at something far 
smaller than that. I would submit that there is at $3.4 billion 
worth of military work to be done. There is clearly other work 
to be done.
    You hit it on the head. One of the first tools they use is 
this energy dependence, and our ability to help Europe to be 
less energy dependent would be huge step forward and may not be 
so bad for American business either.
    Ms. Smith. Yes. I would just absolutely echo everything 
that General Breedlove just said. I think you are exactly 
right.
    I mean, let us be clear, a lot of the allies in Central and 
Eastern Europe do seek reassurance through military means. They 
like to see U.S. troops come through. They would love it even 
more if they stayed permanently. And so they do seek that 
regularly and repeatedly, as you know well.
    But at the same time, you are right, making an investment 
in the institutions, in energy independence, in better tools to 
deal with the strategic communications challenges, with the 
cyber challenges, with energy coercion challenges, all of that 
has to be part of our reassurance package as well.
    It also just starts with traveling more to Europe and being 
present, not just at the Munich Security Conference, but at 
lots of other forums and in other delegation trips to take to 
very sensitive regions that are hurting, that are seeking 
clarity from the United States right now. We are going to need 
more engagement with our partners than ever before.
    Senator Murphy. Thank you.
    The Chairman. Senator Cardin?
    Senator Cardin. I just wanted to thank our witnesses, and 
let us remember the words of Mr. Kara-Murza when he said stay 
true to our principles. You know, we talk about entering into 
some types of arrangements that could be transactional in 
nature. But if they are outside the scope of our values, it 
will not work.
    So I thank our witnesses. I think you have added greatly to 
our discussions.
    The Chairman. I, too, want to thank you. It has been an 
outstanding hearing. I think you have, first of all, heard a 
lot from members that maybe will help you with that piece of 
paper that may be coming back. But we have certainly learned a 
great deal from you.
    Thank you for sharing your knowledge, your expertise, your 
commitment to our country's national security with us today.
    And with that the meeting is adjourned.
    [Whereupon, at 12:24 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


               Responses of Julianne Smith to Questions 
                    Submitted By Senator Todd Young

    Question. Why did the ``Russia Reset'' fail? What lessons do you 
draw from that failure that could inform the Trump administration's 
strategy toward Moscow?

    Answer. At the beginning of his first term, President Obama, much 
like his predecessor, saw an opportunity to cooperate with Russia on a 
limited set of issues to achieve U.S. foreign policy goals. In 
cooperation with President Medvedev, his administration launched the 
``Russian reset'' policy, which stressed enhanced bilateral engagement 
particularly in regards to arms control. During the President's first 
term, the two countries made some important breakthroughs: the New 
START nuclear arms control treaty, an agreement to dispose of excess 
weapons grade plutonium, \1\ and the opening of the northern 
distribution network to shepherd NATO supplies to and from 
Afghanistan.\2\ Russia also became a party to the tough U.N. sanctions 
regime on Iran and delayed sales of advanced anti-air equipment to 
Iran. Furthermore, Russia abstained from vetoing the NATO military 
intervention in Libya. Finally, Presidents Obama and Medvedev 
established the U.S.-Russia Bilateral Commission's Defense Cooperation 
Working Group.
    However, the bilateral relationship began to unravel shortly after 
Vladimir Putin's return to the Russian presidency in 2012. He blamed 
the United States, and in particular, then-Secretary of State Hillary 
Clinton, for the large-scale protests that erupted in Moscow over 
reports that the Russian government tampered with the November 2011 
parliamentary elections. President Putin, facing economic stagnation at 
home (even before the sanctions that came in 2014) decided he needed to 
return Russia to its great power status. He prioritized Russia's 
military modernization, portrayed the United States, NATO, and the 
European Union as external enemies, and challenged the West both 
conventionally and asymmetrically. Today, Russia is redrawing the 
borders of Europe (see Ukraine in 2014 and Georgia in 2008), propping 
up President Assad in Syria, building a vast propaganda network, 
weaponizing information through cyber hacking, intimidating its 
neighbors, and actively working to divide Europe from the United States 
through energy coercion, cyber activities, and disinformation 
campaigns.
    We have learned in recent years that President Putin is not 
especially interested in collaborating with the West. In forming a 
strategy toward Russia, the Trump administration should engage Moscow. 
But President Trump must understand that Putin believes his 
favorability at home is largely dependent upon a tough posture abroad. 
Therefore, President Trump should maintain economic and political 
pressure on Russia and be very wary of a grand bargain with Putin who 
has yet to meet his obligations outlined in the Minsk II Agreement.

    Question. Can you provide additional details on how Russia uses 
energy as a weapon? Is it in America's national security interests to 
help European allies to be less dependent on Russian energy?

    Answer. Russia has shown a willingness to use its vast energy 
holdings as a political weapon to coerce and punish U.S. European 
allies. This has provoked a sense of fear and uneasiness throughout 
Europe, and it is in America's national security interest to help 
Europe decrease its dependence on Russian energy. Some European 
countries, such as Latvia and Estonia, receive virtually all their 
energy supplies from Russia, whereas others, such as France, receive 
little to none. This exposes varying ranges of susceptibility to 
Russian energy pressure throughout Europe, and makes it a difficult 
issue to address.\3\ Today, our partners worry that they could be 
susceptible to Russian pressure in the form of debilitating delays in 
gas delivery, as happened in Ukraine during the winter of 2014. The 
failure to address Europe's continued reliance on Russian energy 
imports, therefore, could threaten to undermine the sustainability of 
the sanction regime against Russia, and could potentially affect 
Europe's (specifically, Eastern Europe's) willingness to work alongside 
the United States for fear of Russian retaliation.

    Question. What specific steps should the new administration take to 
hold Russia accountable for its violation of the Intermediate-Range 
Nuclear Forces (INF) Treaty?

    Answer. There is little doubt that Russia is testing the United 
States' commitment to and enforcement of the Intermediate-Range Nuclear 
Forces (INF) treaty by deploying two battalions of prohibited ground-
launch cruise missiles. This clear violation of the INF treaty is a 
dangerous provocation. Therefore, the U.S. should take several steps to 
hold Russia accountable. First, we must work to avoid miscalculations 
and miscommunications by increasing military to military channels 
between Russia and the U.S., such as the Chairman of the Joint Chiefs' 
recent meeting with his Russian counterpart. Second, the U.S. should 
consult with European allies to determine how to respond to this and 
future provocations, and we should explore potential countermeasures in 
consultation with NATO.

    Question. What specific weapons and equipment do you believe the 
U.S. should provide Ukraine?

    Answer. The conflict Ukraine remains a fast-moving crisis. The U.S. 
should continue to give political, military, and economic support to 
the Ukrainian government for its efforts to reform its political system 
and resolve the conflict in eastern Ukraine. Ukraine's political and 
economic success is vital in deterring future Russian aggression. In 
terms of providing specific weapons and equipment, I would defer to 
U.S. military leaders.

    Question. What is your assessment of Russian global information 
operations, and how can the U.S. respond more effectively in the 
information operations domain? Please provide specifics.

    Answer. The Kremlin's updated military doctrine states that Russia 
will use ``information warfare . . . to achieve political objectives 
without the utilization of military force,'' and accordingly, the state 
should invest in ``the intensification of the role of information 
warfare.'' \4\ Today, Russia's information policy targets countries in 
it immediate neighborhood and beyond (as seen in the recent U.S. 
election). While respecting the First Amendment right of news outlets, 
even foreign-owned and managed ones such as Russia Today (RT), to 
operate freely in the United States, the next president should request 
funding for initiatives to correct Russian fabrications and expose 
agents of disinformation in cases where they can be identified. RT is a 
particularly active source of disinformation and spends $400 million 
per year on its Washington bureau alone.\5\ Today, there is a glaring 
misalignment between Russia's investment in this strategic arena and an 
appropriate U.S. response. The next president should support 
initiatives that challenge false narratives, expose hidden connections 
and interests, and support independent fact-finding efforts. An example 
of such an initiative is the bipartisan Countering Information Warfare 
Act of 2016.\6\ The next president should prioritize the passage and 
implementation of this kind of legislation. More broadly, the 
government should develop new public-private partnerships aimed at 
defending, detecting, and deterring Russian information warfare.

    Question. Ms. Smith: What specific steps should the United States 
take to help reduce the energy dependence of our European allies on 
Russia?

    Answer. Europe receives approximately one-third of its gas from the 
Russian energy company Gazprom, which from 2006 to 2009 periodically 
withheld deliveries to Ukraine during cold months to maximize Russia's 
political leverage over Kiev.\7\ The United States should encourage 
Germany and others to pursue gas import diversification from multiple 
suppliers. Because diversification of pipeline routes does not signify 
diversification of suppliers, the European Union should block Nord 
Stream 2 and instead, pursue pipeline projects from other suppliers. 
Moreover, Poland's experiment with investing in LNG import facilities 
and re-gasification capacity is a good example that the United States 
should encourage throughout the EU. Under Sectary Clinton's leadership, 
the State Department worked with European allies to reduce energy 
dependence on Russia,\8\ and the incoming administration should support 
similar initiatives to assist our European allies with diversifying 
external energy supplies and increasing domestic energy efficiency.
------------------
Notes

    \1\ ``U.S., Russia Sign Protocol to Dispose of 17 Thousand Weapons' 
Worth of Plutonium,'' ABC News, April 13, 2010.
    \2\ Richard A. Oppel, ``U.S. Secures New Supply Routes to 
Afghanistan,'' The New York Times, January 20, 2009.
    \3\ ``Energy production and imports,'' Eurostat, July 2016.
    \4\ Russian Federation Presidential Edict, ``The Military Doctrine 
of the Russian Federation,'' Carnegie Endowment for International 
Peace, February 5, 2010.
    \5\ Amanda Abrams, ``Fighting Back: New Bill Aims to Counter 
Russian Disinformation,'' The New Atlanticist, March 17, 2016.
    \6\ S. 2692, ``Countering Information Warfare Act of 2016,'' March 
2016.
    \7\ James Kanter, ``Europe Seeks Alternatives to Russian Gas 
Imports,'' The New York Times, February 16, 2016.
    \8\ Peter Nicholas, ``Hillary Clinton Says She Pushed for Europe's 
Energy Independence,'' The Wall Street Journal, September 04, 2014.
                               __________

                The Committee Received no Response From 
        General Philip M. Breedlove for the Following Questions

    Question. 1. Why did the ``Russia Reset'' fail? What lessons do you 
draw from that failure that could inform the Trump administration's 
strategy toward Moscow?

    [No Response Received]

    Question. 2. Can you provide additional details on how Russia uses 
energy as a weapon? Is it in America's national security interests to 
help European allies to be less dependent on Russian energy?

    [No Response Received]

    Question. 3. What specific steps should the new administration take 
to hold Russia accountable for its violation of the Intermediate-Range 
Nuclear Forces (INF) Treaty?

    [No Response Received]

    Question. 4. What specific weapons and equipment do you believe the 
U.S. should provide Ukraine?

    [No Response Received]

    Question. 5. What is your assessment of Russian global information 
operations, and how can the U.S. respond more effectively in the 
information operations domain? Please provide specifics.

    [No Response Received]

    Question. 6. General Breedlove: Do you agree that we must not allow 
Moscow to gain military advantage as a result of this INF Treaty 
violation?

    [No Response Received]

    Question. 7. General Breedlove, in terms of the threat from Russia, 
what are your leading North Atlantic Treaty Organization (NATO) 
readiness concerns?

    [No Response Received]
                               __________

           Letter to The President From Senator Cory Gardner

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                  [all]
</pre></body></html>
